<html>
<title> - AFGHANISTAN: GOVERANCE AND THE CIVILIAN STRATEGY</title>
<body><pre>[Senate Hearing 111-709]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-709
 
                       AFGHANISTAN: GOVERANCE AND
                         THE CIVILIAN STRATEGY

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 14, 2010

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                  U.S. GOVERNMENT PRINTING OFFICE
62-190                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dcbbacb39cbfa9afa8b4b9b0acf2bfb3b1f2">[email&#160;protected]</a>  


                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Holbrooke, Hon. Richard, Special Representative for Afghanistan 
  and Pakistan, Department of State, Washington, DC..............     5
    Prepared statement...........................................     9
    Responses to questions submitted for the record by Senator 
      Russell D. Feingold........................................    44
    Response to question submitted for the record by Senator 
      Roger F. Wicker............................................    45
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3

                                 (iii)

  


           AFGHANISTAN: GOVERNANCE AND THE CIVILIAN STRATEGY

                              ----------                              


                        WEDNESDAY, JULY 14, 2010

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:09 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Feingold, Menendez, Cardin, Casey, 
Webb, Shaheen, Kaufman, Lugar, Corker, DeMint, and Wicker.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. This hearing will come to order.
    Let me say, at the outset of the hearing, that the rules of 
the committee are crystal clear with respect to any kind of 
demonstrations of any sort, whatsoever. This committee prides 
itself in listening carefully and in probing and having a 
thoughtful dialogue, even about the most emotional and 
contentious issues, and we ask every member of the public to 
respect that and the rights of the Senators and the committee 
to be able to conduct their business.
    I want to thank everyone for coming this afternoon, and I 
want to extend a very special thank you and welcome to 
Ambassador Dick Holbrooke, who has taken time from an 
exceedingly busy schedule in order to appear again before the 
committee.
    We look forward to hearing your insights, Ambassador 
Holbrooke, and I thank you for doing this.
    I might mention that Ambassador Holbrooke is a little 
conscribed in the amount of time that he can be with us, simply 
because he's got to leave from here directly for the airport in 
order to leave to go to Islamabad and Kabul. And Secretary 
Clinton will be following, I think, in a few days. So, a lot is 
happening, and it is timely for us to be able to meet here 
today and have this discussion.
    I also want to say, very clearly, that I think Ambassador 
Holbrooke has assembled an outstanding team, a group of people 
many of whom I know personally and who I think bring an 
enormous amount of experience and intellectual ability to this 
challenge. And I congratulate him and the Secretary for that, 
and I want to also say that I think he has been doing an 
outstanding job under exceedingly difficult circumstances.
    I think all of us know that, for 7 or 8 years, the war in 
Afghanistan proceeded as if there was no, really, clear 
definition of the mission or the strategy. I think it's in the 
last year or so that we've begun to try to pull that together. 
But, it's obviously been complicated by the events that 
intervened over the course of those 7 or 8 years.
    This is the Foreign Relations Committee's 11th hearing on 
Afghanistan in the past year and a half, and the number 
reflects both our commitment and our concern about 
understanding the challenges of this part of the world--
Afghanistan, Pakistan, South Asia--and our recognition of the 
critical role that this conflict plays in our own national 
security.
    I have said that the committee will continue, over the 
course of these next months, to continue a series of hearings 
on this topic, and I think it is a reflection of the importance 
of what is happening there, the importance of the region. It 
also is a reflection of an unfortunate fact. Last month, 
Afghanistan surpassed Vietnam, a place that both Ambassador 
Holbrooke and I are all too familiar with, as the longest 
military campaign in American history. More than 1,000 men and 
women have lost their lives in Afghanistan; nearly 6,000 of 
them have been grievously injured. And we owe a duty to every 
single one of them, and to their families and to the tens of 
thousands of other military and civilian personnel in 
Afghanistan from our country, and our partners from other 
countries--we owe them all the exercise of our oversight role 
in order to seriously and responsibly present them with the 
best strategy possible.
    It would be avoidance if we didn't say that this is a 
difficult moment in the Afghan conflict. Our progress is 
decidedly mixed, particularly in the south, where the Taliban 
are strongest. The Taliban are currently assassinating 
government officials and tribal leaders, embarking on a 
campaign of intimidating Afghans who want to support coalition 
efforts.
    Regrettably, corruption in some quarters appears to grow. 
One in three Afghan households reports having to pay a bribe to 
obtain public services. And our civilian aid efforts to bring 
stability and consolidate military gains are off to a slow 
start in the south and in the east.
    Many people have asked the question, whether or not we have 
the right strategy. So, this is a good time to be asking hard 
questions about the progress that we're making toward our 
objectives of defeating al-Qaeda and bringing a measure of 
stability to Afghanistan. It's also time to demand 
accountability from our partners on the battlefield and in the 
corridors of government, from Washington to Brussels, from 
Kabul to Kandahar.
    It is also time to assess how our strategy fits the 
realities on the ground. Over the past year, some of those 
realities have changed, and, I might say, few for the better. I 
happen to believe that the conditions, which I set out last 
October for deploying more troops, still hold today. And I'm 
concerned as to whether or not those kinds of conditions are 
being adequately met.
    First, the insistence on the presence of reliable Afghan 
troops to partner with our military as we decide to proactively 
clear an area.
    Second, when we engage in holding those areas, I believe it 
is critical to secure capable local leaders with whom we can 
partner, in order to provide effective governance. Governance 
remains one of the great challenges, if not the great 
challenge.
    And finally, the ``build'' and ``transfer'' components of 
our mission really require that area to shift to Afghan 
control. And in order to do that, the civilian side must be 
prepared to move quickly, with well-implemented support 
structure, underneath the ``clear'' and ``hold'' efforts. When 
those conditions are met, it's hard to imagine that you're not 
going to have a better outcome.
    Today's hearing is intended to take a tough look at the 
civilian strategy to see if we are on the right path. The 
administration requested $4.4 billion in fiscal year 2010 to 
support civilian efforts in Afghanistan, and another $3.9 
billion for the next fiscal year. And needless to say, we need 
to make sure this money is spent as well as possible.
    In recent weeks, the committee staff conducted 16 briefings 
with the State Department and USAID in order to examine how we 
are spending the taxpayers' money, dollar by dollar, sector by 
sector, in Afghanistan and Pakistan. It's our intention, 
needless to say, to continue to keep a close eye on how that 
money is being spent to promote stability in the region.
    I might add that the committee will shortly be releasing a 
report--I've informed Ambassador Holbrooke about this--a report 
on this topic of corruption, and hopefully it is a report which 
will set out some recommendations for how we might be able to 
better respond to some of these issues.
    In the end, all of the billions of dollars and all of the 
United States efforts--best efforts--all of the sacrifices by 
our troops, are all going to be irrelevant if the United States 
and our partners do not have the right strategy to establish 
effective Afghan governance and, ultimately, effective Afghan 
takeover of responsibility. The problem is that the key element 
of this strategy is the one over which we have the least 
control, and that is the willingness and ability of Afghans to 
assume ownership of the effort.
    For nearly 9 years, most Afghans have seen themselves as 
bystanders in a conflict between the West and al-Qaeda, and a 
conflict being fought in their homeland. In recent months, 
we've launched a concerted effort to convince Afghans that this 
is their fight. It's not an easy task, given the historic 
distrust of foreigners on Afghan soil, but it's a vital one.
    Ultimately, we need a better understanding of exactly what 
the definition of ``success'' is in Afghanistan, and what an 
acceptable state looks like there, and how achievable it is.
    Many have said repeatedly--I think, Ambassador Holbrooke 
among them, myself, others--that there is no military solution 
in Afghanistan. Having said that, we absolutely need to 
understand what the political solution looks like, and how we 
get there. And those are the most relevant questions that we 
want to examine in the course of the hearing today.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. I join the chairman in welcoming Ambassador 
Holbrooke back to the committee.
    This hearing provides an opportunity to review our progress 
and refine our understanding of United States policy in 
Afghanistan. There is substantial concern about our course in 
Afghanistan, in part because of the recent disruption in our 
own military leadership, but also because gains in governance, 
development, military training, and other areas have not 
occurred at a pace that boosts confidence in President Obama's 
original timetable.
    Some security improvements have been achieved and more are 
likely to follow, but they have been hard won. In 6 months, the 
President expects a review by his commanders on the status of 
our efforts in Afghanistan. This review presumably would 
determine the shape of an expected transition of 
responsibilities to Afghan security forces in July 2011. But 
absent a major realignment on the ground, it is unrealistic to 
expect that a significant downsizing of U.S. forces could occur 
at that time without security consequences.
    This conclusion is reinforced by recent GAO and inspector 
general reports that have raised deep concerns over the 
viability and quality of training for the Afghan National Army 
and police. The lack of clarity in Afghanistan does not end 
with the President's timetable. Both civilian and military 
operations in Afghanistan are proceeding without a clear 
definition of success. There has been much discussion of our 
counterinsurgency strategy and methods, but very little 
explanation of what metrics must be achieved before the country 
is considered secure.
    At some moments it appears as if we are trying to remake 
the economic, political, and security culture of Afghanistan. 
We should know by now that such grand ambitions are beyond our 
resources and powers.
    At other moments, it appears we are content with a narrow, 
security-driven definition of success: Namely, preventing an 
implacably hostile Taliban regime from taking over the 
government and preventing Afghanistan from becoming a terrorist 
safe haven, regardless of what government is in power.
    But even if this narrow definition of success were embraced 
by the Obama administration, it would require amplification. 
How much Taliban military capability and territorial control is 
tolerable? What are we currently doing in Afghanistan that is 
not required to achieve this narrow objective? What are 
reasonable mileposts for judging progress toward success? What 
time constraints do we perceive, given resource and alliance 
pressures? How do dynamics in Pakistan factor into our strategy 
in Afghanistan?
    I recognize that the situation in Afghanistan is fluid and 
not easily defined. I also understand why an administration 
would not want to be pinned down to a specific definition of 
success. The problem is that we are expending enormous 
resources in Afghanistan. Our resources are finite, and they 
must be focused effectively. We need to know if some missions 
that currently are receiving resources are not intrinsic to our 
objectives. We also need to know what missions are absolutely 
indispensable to success, however it is defined.
    We can't fall back on measuring our military and civilian 
activities in Afghanistan according to relative progress. 
Arguably we could make progress for decades, on security, 
employment, good governance, women's rights and other goals--
expending billions of dollars each year--without ever reaching 
a satisfying conclusion. In such circumstances, avoiding 
mission creep toward unattainable goals is essential.
    Given this situation, it is reasonable to consider the 
enlistment of local militias in security operations under the 
authority of a Ministry of Interior or Defense. This tactic has 
been frequently debated, and may not be applicable in all 
cases. But since his arrival in Kabul, General Petraeus appears 
inclined to explore it.
    This decision is a difficult one, given Afghanistan's 
history of conflict under warlords. As such, local militias are 
best integrated within a longer term institutionalization plan 
for such forces. President Karzai presented a draft Afghan 
Peace and Reintegration Program to NATO for consideration. The 
issues of reconciliation and reintegration are now in broad 
discussion. The committee would welcome some remarks on the 
status of the draft program and its elements, as well as the 
position of our government toward it. Who is participating and 
leading the coordination of such discussions with the Afghan 
Government and groups seeking reconciliation?
    I am hopeful that the administration will not wait 6 months 
to refine its explanation of our goals in Afghanistan. It is up 
to the President to define success, and delineate how much time 
and how many resources should be devoted to achieving it.
    I appreciate today, as always, Ambassador Holbrooke, your 
willingness to join us, and I very much look forward to our 
discussion.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    Mr. Ambassador, thank you for your patience. We appreciate 
it. We look forward to your statement. If you want to try to 
summarize, and then engage--you've been through this many 
times--we put the full text in the record as if read in full.

STATEMENT OF HON. RICHARD HOLBROOKE, SPECIAL REPRESENTATIVE FOR 
 AFGHANISTAN AND PAKISTAN, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Holbrooke. Thank you, Mr. Chairman. It's a 
great, great honor to be back before this committee.
    Thirty-fourth year I've testified before this committee, 
and there's no committee that plays a more important role in 
the national security interests of our country.
    And I especially want to thank you and Senator Lugar for 
your historic leadership in the last year and a half in regard 
to at least two issues, your personal role in regard to the 
Afghan elections and the leadership you and Senator Lugar 
provided in what is now known as the KLB, Kerry-Lugar-Berman, 
legislation for Pakistan which has had an enormous effect, and 
which I will refer to again in the future.
    As you said, Senator, I will be leaving for Islamabad, 
directly from this hearing, through Andrews Air Force Base, 
stopping in Germany to refuel and going on to Afghanistan with 
Secretary Clinton. And I want to be as brief as I can.
    First of all, Mr. Chairman, you began by saying we need to 
demand accountability of our partners. And I think the partners 
include our partnership, and I welcome the chance to speak 
again before this distinguished group on our role in this 
effort.
    I want to just begin with the most critical point. And if 
you will, may I submit my formal statement.
    The Chairman. Absolutely. Without objection, it'll be 
placed in the record as if read in full.
    Ambassador Holbrooke. Eighteen months ago, we inherited a 
situation in which Afghanistan and Pakistan were treated as 
separate issues and there was no single approach to it; hence, 
the unattractive acronym AfPak, which we do not use in public, 
but which was designed to stress the fact that these issues are 
closely related. I will return to that theme repeatedly as we 
go forward.
    But, I would just note that, once President Obama and 
Secretary Clinton gave me this job, 35 other nations appointed 
counterparts. The U.S. Government reorganized to reflect the 
fact that you cannot succeed in Afghanistan without Pakistan's 
involvement. And that, Mr. Chairman, is the underlying 
strategic principle by which we approach the issues we're 
discussing today.
    In Afghanistan, since I last testified before you, there's 
been considerable activity in many areas, all of which you know 
about: the increase in American troops, the implementation of 
the counterinsurgency strategy under General McChrystal and now 
General Petraeus. We have worked very closely to do the 
civilian support for that plan. But, I need to stress, as all 
of us in this room know, that security is the essential 
prerequisite for everything else.
    In regard to the elections last year, you all know what 
happened, but the point I want to underscore is that, for the 
first 10 months of the administration's tenure, from January 21 
of last year to November 19, the elections hung over us like a 
dark cloud, often reaching critical mass, never more tense than 
when Senator Kerry himself was in Kabul, playing such an 
instrumental role in the resolution of that near disaster, 
which, in the end, produced a legitimate government, but in a 
very messy way.
    At that time, we were finally able to look forward to 
implementation of the strategies we're here to discuss today. 
And first and foremost among those was the implementation of a 
change in agriculture, a change in counternarcotics, a change 
in rule of law, and changes in our attitude about funding 
contractual efforts.
    In this regard, Mr. Chairman, and with your prior 
permission, I brought members of 6 of the 10 agencies which 
work with me, and which you referred to, with me today, and 
very briefly, with your permission, I would just like to 
introduce them, not simply because of who they are, but because 
they represent a unique interagency effort. And if they could 
just quickly stand as I read their names, starting on my left, 
my chief of staff from the State Department, Rosemarie Pauli; 
next to her, you all know Assistant Secretary of State for 
Congressional Affairs, Richard Verma; next to him, my deputy, 
Dan Feldman, who used to work for your committee; next to Dan, 
Rami Shy, from the Treasury Department; next to him, Matt 
Stiglitz, from the Justice Department; next to him, Shannon 
Darcy, from AID; next to Shannon, Quentin Gray, from the U.S. 
Department of Agriculture; next to Quentin, Raul Ortiz, just 
joined us from the Department of Homeland Security; and next to 
him, Kim McClure, on her last day as a State Department 
staffer--she is going on to a Council on Foreign Relations 
fellowship.
    In the--now, the six agencies not here are CIA, Joint 
Chiefs of Staff, the FBI, and the Office of the Secretary of 
Defense.
    No office in the Department's history has had this 
interagency. And this is designed--I brought them here today, 
Mr. Chairman, to illustrate to you, as succinctly as possible, 
that we have a whole-of-government approach here, and there is 
very good civilian/military coordination.
    On the second row, Rina Amiri, our Afghan political expert 
and a former member of the United Nations team; Tim Lenderking, 
our new Pakistan country director; and Jim DeHart, our new 
Afghan country director.
    So, with that team behind us, Mr. Chairman, we have 
embarked on full implementation, in close coordination with 
CENTCOM and ISAF and the American Embassy in Kabul, of the 
efforts that you want to discuss today.
    I'd like to take a quick look forward, if I might, toward 
what's coming up. On July 20, Secretary Clinton will lead the 
American delegation to the Kabul Conference. This will be a 
conference that involves Secretary General of the United 
Nations, Ban Ki-moon, NATO Secretary General Rasmussen, and 
somewhere between 35 and 55 Foreign Ministers, numbers still to 
be determined. It will be the largest gathering of foreign 
leaders in Afghanistan since the 1970s. She is going because 
she wants to demonstrate our support for the commitment, our 
support for the government's efforts, our support for an 
integrated civilian/military effort that combines our resources 
and those of the government.
    Both you and Senator Lugar correctly made the point that, 
in the end, it's the Afghan Government that must succeed. We 
can only help them. Anyone who shared the experience that you 
and I and Senator Webb and others shared in another war, in 
another century, know full well what the consequences are if we 
Americanize the war. We cannot afford to repeat the mistake 
which at least three people today lived through, personally. 
And we carry forward those memories, not to be imprisoned by 
the memories of Vietnam, but to learn from the tactical issues 
that took place.
    But, I want to underscore the fundamental difference 
between those two wars, since you mentioned it, Mr. Chairman. 
In this war, our national security interests are at stake, our 
homeland security is threatened. In Afghanistan that is true, 
and it affects our policy toward Pakistan.
    Now, the biggest change in policy, which could not be 
implemented until the political situation was behind us, is the 
reintegration program that President Karzai announced in 
London, signed the implementing decree on 2 weeks ago, and will 
unveil fully in Kabul next week. That is the program that was 
missing from the Afghan equation, the program designed to bring 
Taliban fighters in voluntarily. As you said, Mr. Chairman, 
there's no military solution here. So, as General Petraeus and 
General McChrystal said, you're not going to win this war by 
killing every member of the Taliban. It just doesn't work that 
way in this kind of war.
    So, the goal here is to create a new program. It was a 
massive gap in the food chain of our efforts. Led by the 
Japanese and the British, almost $200 million has been 
assembled for this fund. The United States, for its part, with 
the support of Congress, has assigned $100 million of CERP 
funds for this effort, under General Petraeus's personal 
control. And those of you who have talked to General Petraeus 
know that he attaches the highest importance to this issue.
    Mr. Chairman, you mentioned your corruption report, and we 
have, as you said, talked privately about it. We share your 
concern, we share the concern of Chairwoman Lowey in the other 
body, and we will read your report with great attention. We are 
prepared, at some later date, at your convenience, to give you 
a very detailed briefing of what we have done in the last 18 
months. And several of the people sitting behind me have been 
instrumental in that. I just want to say that we inherited no 
serious program on this issue. We now have a very large number 
of people from Treasury, FBI, CIA, DEA, AID, and State working 
on corruption. Still, Mr. Chairman, it isn't enough, and we 
well understand that.
    President Karzai has committed himself, publicly and 
privately, to upgrading his anticorruption office, and this 
will be a major topic of conversation during the Kabul 
Conference. And we will read your report with great interest.
    Finally, Mr. Chairman, I want to return to the issue of 
Pakistan and Afghanistan. I said, at the outset, that we cannot 
succeed in Afghanistan without Pakistan's participation. Let me 
go a little further. When we came into office early last year, 
we set--as an implementing goal for our strategic objective, 
which is to defeat al-Qaeda and destroy them and protect our 
homeland--we set several subordinate goals. One of the most 
important was to bring Afghanistan and Pakistan closer 
together. Since the day Pakistan became independent, in 1947, 
there's been a substantial problem between the two countries, 
most dramatically illustrated by the fact that, the day after 
Pakistan became independent, Afghanistan opposed their entry 
into the United Nations, a story which every Pakistani 
schoolchild is taught in school. The border is still disputed, 
and the overlay of recent events has made it even more serious.
    In the last 15 to 20 years, there has been no serious 
dialogue between these two neighbors, which are intertwined, 
and the history of it, the Charlie Wilson's War, you're all 
familiar with.
    We set out the goal of improving that relationship, and in 
recent months there has been the first narrowing of the 
distance between Kabul and Islamabad. There have been visits in 
both directions by both leaders. Those are continuing. General 
Petraeus has been involved in those. Secretary Clinton, myself, 
the President of the United States has encouraged it. I do not 
want to leave your committee, or anyone who's listening to this 
hearing, with the impression that any agreements have been 
reached; they have not. I do not want to leave anyone in this 
committee with the impression that some of the news reports 
recently, fevered accounts of secret deals between elements in 
Pakistan and elements in the Taliban, are accurate. We have no 
evidence whatsoever of the accuracy of those reports. But, 
there is movement. And that movement, below the radar screen, 
has been massively supported by the Kerry-Lugar-Berman 
legislation.
    I cannot thank this committee enough--and I mean this 
sincerely--for what you did last year. It was difficult, and 
the initial reaction in Pakistan was not, shall I say, 
pleasant, because there was a serious misunderstanding. Your 
personal intervention, Mr. Chairman, ameliorated the problem. 
We believe it is more or less gone.
    The money is beginning to flow. The implementing operating 
plans have been filed. Some of the money is going forward. 
Secretary Clinton and I will be making further announcements 
about this. But, the effect of the legislation is unmistakable, 
and it has encouraged an improvement in United States-Pakistan 
relations, a better dialogue between Kabul and Islamabad, and 
some sense that we are also simultaneously, with the war 
effort, looking for other ways to move this process forward.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Holbrooke follows:]

    Prepared Statement of Ambassador Richard C. Holbrooke, Special 
   Representative for Afghanistan and Pakistan, Department of State, 
                             Washington, DC

    Chairman Kerry, Ranking Member Lugar, thank you for this 
opportunity to provide an update on our efforts in Afghanistan and 
Pakistan.
    Tonight I depart for Islamabad, and then will travel on to Kabul, 
and New Delhi. This will be my 14th visit to Pakistan in the past 19 
months. In addition to meetings with key leaders on a range of topics, 
I will join Secretary Clinton when she leads the U.S. delegation to the 
Kabul Conference. While the Kabul Conference has attracted more 
international attention, we have seen a significant intensification of 
our dialogue with Pakistan, where we have convened 13 successful 
Strategic Dialogue Working Group meetings over the past 2 months. These 
meetings followed the March 24-25 U.S.-Pakistan Strategic Dialogue in 
Washington, and the Secretary's highly successful visit to Pakistan in 
October 2009. The Kabul Conference and other upcoming events--including 
another Afghanistan-Pakistan-United States trilateral meeting later 
this year--are part of a series of milestones concluding with the 
administration's planned assessment of our progress in December 2010.
    As President Obama reiterated just a few weeks ago, our Core Goal 
in Afghanistan and Pakistan is clear: to disrupt, dismantle, and defeat 
al-Qaeda, and prevent its return to both countries. I participated in 
the fall 2009 policy review. And in close consultation with Secretary 
Clinton, Secretary Gates, Admiral Mullen, General Petraeus, Ambassadors 
Eikenberry and Patterson, and Dr. Shah, my interagency team has been 
working tirelessly to help implement the President's strategy. We face 
huge implementation challenges on the ground. But our political and 
diplomatic engagement with Afghanistan, Pakistan, and other influential 
countries has evolved significantly since my first official visit to 
the region in January 2009, bringing us closer to facilitating a 
durable and favorable resolution of the conflict.
    Nowhere is this more apparent than in Pakistan, where we have seen 
a steady improvement in our bilateral relationship. As members of this 
committee have recognized, what happens in Pakistan has tremendous 
implications not only for our goals in Afghanistan, but also for the 
stability of South-Central Asia and for U.S. national security. We have 
been pursuing three objectives simultaneously in Pakistan: (1) 
Enhancing stability (political, economic, and security); (2) supporting 
Pakistan's offensive against extremists who threaten Pakistan and the 
United States; and (3) encouraging a closer relationship between 
Islamabad and Kabul. Through a carefully calibrated approach, we are 
seeing signs of progress. For the first time in more than a decade, we 
recognize and are engaging the people of Pakistan on their legitimate 
interests and priorities, even as we encourage greater collaboration in 
areas of mutual interest.
    Politically, Pakistan's civilian and military leaders have settled 
into a relatively stable equilibrium as a result of recent 
constitutional reforms. The upgraded and intensified U.S.-Pakistan 
Strategic Dialogue, which Secretary Clinton and Foreign Minister 
Quereshi convened in March, has provided a framework to engage Pakistan 
on mutual priorities and assisted the Pakistani Government in 
structuring reforms crucial to long-term stability.
    Economically, Pakistan's leaders have made many tough decisions 
necessary to meet the mutually agreed conditions of the IMF's Stand-by 
agreement. As a result Pakistan has shifted from economic crisis to a 
period of economic recovery. Other tough decisions and reforms will be 
necessary to ensure that Pakistan remains on the path toward economic 
self sufficiency. Our overhauled assistance programs, made possible by 
the landmark Enhanced Partnership with Pakistan Act, will help 
reinforce these reforms in areas such as energy. They also will further 
improve our relationship with the Pakistani people by signaling our 
support for addressing Pakistan's most pressing problems.
    These programs would not have been possible without this 
committee's leadership. We have been engaged in a substantive dialogue 
on how to best structure our assistance to maximize its impact, and I 
look forward to continued close collaboration as initial Kerry-Lugar-
Berman funding comes online. Equally important is passage of 
Reconstruction Opportunity Zone (ROZ) legislation, which would further 
bolster our efforts to stabilize Pakistan's border areas by creating 
licit economic opportunities. ROZs would also support Pakistani 
reconstruction efforts in the border areas by stimulating economic 
opportunity.
    On counterterrorism issues, Prime Minister Gilani and President 
Zardari have united the Pakistani people--including the opposition--
behind the Pakistani military's offensive in the tribal areas. We 
cannot forget that the Pakistani people and armed forces have made huge 
sacrifices as part of this fight. In the past month alone, scores of 
innocent Pakistanis have been killed or wounded in suicide attacks. 
Hundreds of thousands of Pakistanis have also had their lives upended.
    As Secretary Clinton emphasized during her October 2009 visit and 
again at the March Strategic Dialogue, the American people will 
continue to stand by the Pakistani people in their time of need. We are 
proud to be the world's largest provider of assistance to displaced 
Pakistanis and we will build on that support, as I announced during my 
June visit to Pakistan. USAID and State are continuing to provide a 
range of stabilization assistance in post-conflict areas. We appreciate 
this committee's support for innovative approaches to ensuring that 
this assistance reaches Pakistani communities most affected by violence 
and most in need of our support. Through this assistance and new mobile 
and radio communications programs, we are helping the Pakistani people 
to overcome the extremist narrative and end the cycle of extremist 
violence.
    Our focused security assistance and close cooperation with the 
Pakistani military are, of course, critical tools for building 
Pakistani counterinsurgency capabilities and shaping Pakistan's 
counterterrorism operations. Even as we increase our civilian 
assistance levels, I believe we must maintain our security assistance 
and adapt it to emerging needs.
    Perhaps the most significant Pakistan-related development since 
January 2009 has been its improved relationship with Afghanistan. 
Recognizing that Pakistan's and Afghanistan's futures are intertwined, 
we have consulted closely with both governments on our strategy. 
Through the trilateral process, we have facilitated a significant thaw 
in relations between Islamabad and Kabul and encouraged progress on 
regional economic integration. There is not yet strategic symmetry on 
all topics, but the thawing of differences should create additional 
opportunities as our regional diplomacy and political strategy 
develops. Significantly, Pakistan's leaders now publicly acknowledge 
the cross-border nature of the extremist threat and that Afghan 
stability is in Pakistan's interest. Meanwhile, we have also welcomed 
the resumption of more frequent high-level dialogue between New Delhi 
and Islamabad, which should benefit regional stability.
    Across the border, the July 20 Kabul Conference will provide an 
opportunity for the Afghan Government to offer concrete plans to 
benefit the Afghan people. This is the first major international 
conference held in Afghanistan since the 1970s and an important step 
toward greater Afghan ownership and sovereignty. We expect that 
President Karzai will address commitments he made in his November 2009 
inaugural address and at the January 2010 London Conference--including 
on topics such as on governance and accountability, rule of law, and 
economic and social development.
    Among the most important announcements will be the formal launch of 
an operational reintegration program, supported by an international 
trust fund. Additionally, the Department of Defense has been authorized 
to spend up to $100 million to support initial Afghan reintegration 
efforts. Achieving a durable and favorable resolution of the conflict 
will require the Afghan Government to increasingly address the Afghan 
people's grievances and economic needs. This includes the sizable 
number of insurgents who are not affiliated with al-Qaeda and have been 
attracted to the insurgency for nonideological reasons. President Obama 
discussed reintegration and reconciliation with President Karzai when 
he visited Washington in May. We welcomed the Afghan Government's plan 
to host a Consultative Peace Jirga with a representative group of 
Afghan society to discuss the details of this reintegration plan and 
broader outreach efforts. We are now supporting the Afghan Government's 
efforts to implement several Jirga outcomes.
    During President Karzai's recent visit, President Obama reiterated 
that our support for Afghan-led reintegration and reconciliation is 
based on a shared commitment to full transparency and basic principles. 
Insurgents must: (1) cut ties to
al-Qaeda; (2) cease violence against the Afghan state; and (3) accept 
the Afghan Constitution, including its protections for human rights and 
women's equality. Our position on this last point is unambiguous. 
Afghan-led peace efforts must not be a vehicle for reversing the 
progress of Afghan women and girls since 2001. As Secretary Clinton 
reiterated during President Karzai's visit, ``it is essential that 
women's rights and women's opportunities are not sacrificed or trampled 
on in the reconciliation process.'' We will not abandon Afghanistan's 
women.
    Another important outcome of the Kabul Conference will likely be 
the announcement of a joint NATO-Afghan Government provincial 
transition plan. In April, ISAF partners and allies endorsed a 
decisionmaking framework to discuss with the Afghan Government. NATO 
Senior Civilian Ambassador Mark Sedwill has been coordinating with 
Afghan ministers to outline a detailed mechanism. Transition will not 
be a single event, nor will it represent the end of the international 
military and civilian assistance to the Afghan Government in a 
particular province. Instead, transition will be a process by which the 
Afghan Government assumes greater responsibility for security. As 
conditions improve on the ground, the Afghan Government will be able to 
provide improved services in key districts at the subnational level.
    In this context, it is also important to understand the meaning of 
July 2011. As President Obama, Secretary Clinton, and Secretary Gates 
have made clear, July 2011 is not a withdrawal date for all U.S. combat 
forces. In the President's words, we will not ``be switching off the 
lights and closing the door behind us.'' While in July 2011 we will 
begin reducing U.S. combat troop levels, the size of and timing of any 
reduction in forces will be determined after a thorough assessment that 
will account for the views of the Afghan Government, as well as our 
ISAF allies and partners. The eventual pace of the reduction in U.S. 
combat troops will depend on the conditions on the ground. And even 
then, our partnership with the Afghan Government and Afghan people will 
not end.
    As President Obama explained during his joint press conference with 
President Karzai on May 12, ``Even as we begin to transition security 
responsibility to Afghans over the next year, we will sustain a robust 
commitment in Afghanistan going forward . . . will partner with the 
Afghan people for the long term--toward a future of greater security, 
prosperity, justice, and progress.'' The shape of this long-term 
commitment will be clarified in coming months as we negotiate a new 
Strategic Partnership with the Afghan Government. The Strategic 
Partnership will provide a framework for transitioning to a more normal 
bilateral relationship with the Afghan Government. Discussions will 
focus on themes critical to the U.S.-Afghanistan relationship, 
including our long-term commitment of security and economic assistance. 
We have committed to consult Afghanistan's neighbors and key partners 
as part of these deliberations, and will also keep Congress fully 
informed.
    Equally important will be a sustained international commitment to 
supporting the Afghan Government. Parallel to our negotiation of a new 
U.S.-Afghanistan Strategic Partnership, we will consult with our ISAF 
allies and partners, encouraging them to publicly commit to: (1) 
continued assistance for training and equipping Afghanistan's security 
forces; and (2) providing long-term development assistance. This long-
term commitment is the only way to ensure that our gains are durable 
and that Afghanistan does not once again become a safe haven from which 
extremists plot attacks on our homeland.
    Prudent planning for the future should not be mistaken for a lack 
of commitment to our ongoing civ-mil efforts. I outlined our civilian 
initiatives when I appeared before this committee in January and 
presented the Afghanistan and Pakistan Regional Stabilization Strategy. 
Over the past 6 months, General Petraeus and I have further 
synchronized our civilian and military plans by continuing a series of 
civilian-military coordination sessions. In April, we convened for 2 
days in Kabul with the entire civ-mil Embassy-ISAF team, President 
Karzai, and his senior ministers to review our progress and further 
refine our programs. We agreed to reconvene in this format again in 
October. As General Petraeus has now transitioned to a new role as 
COMISAF, our close collaboration has intensified on a range of issues, 
including support for Afghan-led reintegration and a sustainable 
approach to increasing electricity production for Kandahar.
    Like many of you, I have traveled outside of Kabul over the past 6 
months to see our civ-mil efforts firsthand. Contrary to some press 
accounts, our civilians have surged. More than 1,000 USG civilian 
employees from 10 departments and agencies are now serving in 
Afghanistan, with a goal of further increasing the civilian presence by 
as much as 20 percent by the end of 2010. Many of these civilians are 
deployed on the front lines, working and living in the same dangerous 
conditions as our combat troops in places like Kandahar and Marjah. 
Each civilian in the field often employs up 10 Afghan partners. They 
are engaged in a range of activities, from rebuilding Afghanistan's 
once vibrant agricultural sector, to working with key Afghan ministries 
to improve provision of health, education, justice, and other services 
outside of provincial capitals.
    We have committed to be providing enhanced levels of oversight and 
to working with the Afghan Government to improve the transparency and 
accountability of its ministries. Key to these efforts has been a 
reduction of our reliance on large international contractors and 
establishment of an accreditation process for Afghan ministries to 
receive increased direct assistance if they improve transparency, 
oversight, and accountability. These measures help us manage the risk 
we assume by working in such a complex environment.
    We have also engaged in a clear-eyed discussion with President 
Karzai on the challenges of corruption--including on the question of 
how the United States and other international donors can ensure that 
our contracting practices do not contribute to it. President Karzai 
identified corruption as a major concern in his inaugural address and 
we support steps he has taken to begin addressing this problem. These 
include issuing a Presidential Decree in March 2010 that provided the 
USAID-supported High Office of Oversight additional investigative 
powers. It also outlined a process, which we are supporting, for 
establishing a Monitoring and Evaluation Committee on corruption 
comprised of Afghan and international experts. Along with other U.S. 
assistance to the Major Crimes Task Force and Afghanistan's judiciary, 
we are helping the Afghan Government implement additional safeguards 
aimed at reducing corruption.
    For sure, we face many other challenges to achieving our civilian 
goals in Afghanistan, including a resilient insurgency and limited, 
albeit increasing Afghan Government capacity. But we are beginning to 
see initial results from our new strategy in several areas. We plan to 
provide a more detailed overview of these results later this year, but 
let me cite a few brief examples:

  <bullet> USAID's agriculture voucher program, launched in September 
        2009, has distributed wheat seed to more than 366,000 farmers, 
        trained 80,000 Afghan farmers in best practices, and employed 
        over 70,000 Afghans on short-term rural infrastructure 
        projects. In many places throughout the Afghanistan's south, 
        these programs are increasingly being administered under the 
        auspices of the Afghan Ministry of Agriculture, whose extension 
        agents receive training from forward-deployed USDA and UAID 
        agriculture advisors.
  <bullet> In 2009, we shifted our counternarcotics strategy away from 
        eradication, which did little to reduce poppy cultivation and 
        pushed poor farmers into the Taliban's hands. Our new 
        counternarcotics strategy is comprehensive, combining: law 
        enforcement; intelligence; interdiction; demand reduction; 
        regional coordination; and alternative livelihoods programs. 
        Since implementing it, we have seen significant increases in: 
        the number of drug labs destroyed; the numbers of drug 
        traffickers arrested; the amounts of opium, poppy, heroin, and 
        morphine base seized; and the number of joint operations with 
        Afghan forces. Civilian DEA agents are helping to train Afghan 
        Counternarcotics Police, and working with Afghan personnel to 
        identify and destroy narcotrafficking networks. In the first 
        quarter of 2010, international and Afghan forces conducted 56 
        military and law-enforcement interdiction operations in 
        Afghanistan, largely in the south. These operations destroyed 
        16.3metric tons (MT) of opium, 195 kilograms of morphine, 1.2 
        MT of heroin, 9.8 MT of hashish and, 10.1 MT of precursor 
        chemicals.
  <bullet> We are working to restore cellular service in areas where 
        the Taliban has destroyed or deactivated towers. One of our 
        civilians embedded with the Marines in Nawa, Helmand province 
        reported that soon after a local cell tower resumed operation 
        ``three cell phone shops opened in the district bazaar and SIM 
        cards were available in the whole of the district--without 
        involvement from the Marines or U.S. civilians. Farmers now 
        call their relatives in the district and provincial capitals to 
        see if prices make it worthwhile to transport their goods. 
        Families can warn each other about influxes of Taliban or mines 
        on the road.'' Cell service has recently been extended to 
        Marjah and Garmsir, with similar economic and security 
        benefits. In the coming months, ISAF and our Embassy will work 
        to create a backup network in areas where the Taliban shuts 
        down private carriers. This will provide uninterrupted access 
        for Afghans, improving security for communities as well as our 
        own civilian and military personnel.

    Indeed, Afghans in areas previously dominated by the Taliban are 
slowly supporting the Afghan Government. They are appreciative of the 
improvements that our civilian programs are bringing to their 
communities. When I met with a group of elders during my recent visit 
to Marjah, they expressed gratitude for our agricultural support. They 
also underscored the great personal risks they were undertaking to 
stand up against the Taliban.
    Ultimately, our goal is to empower the Afghan Government so that it 
is in the strongest possible position as Afghan-led political and 
economic efforts move forward. This will require continued progress by 
the Afghan Government and continued international support. It is 
important to remember that we are not alone in this endeavor. Since 
President Obama spoke at West Point on December 1, ISAF allies and 
partners have provided roughly 10,000 additional troops and several 
hundred additional trainers to support security efforts. More than 60 
countries are providing civilian assistance to Afghanistan. Under the 
highly capable leadership of U.N. Special Representative Staffan de 
Mistura and Ambassador Sedwill, members of the international community 
are increasing their coordination on the ground and in the 
implementation of their programs. They are focusing on Afghan 
priorities and implementing them in a way that builds Afghan Government 
capacity.
    Simultaneously, we are engaging India, Russia, China, and the 
Central Asian republics to discuss ways that they can support regional 
stability while ensuring their legitimate interests. And building on 
President Obama's June 2009 speech in Cairo, my team has made it a top 
priority to increase Muslim countries' support for Afghanistan. Their 
contributions carry political weight beyond providing positive effects 
on the ground. To cite only a few of many examples:

  <bullet> The UAE, Egypt, and Saudi Arabia have posted their first 
        resident Ambassadors to Kabul. Seven Organization of Islamic 
        Conference (OIC) countries participate in the international 
        SRAP support group.
  <bullet> Turkey has greatly expanded its training of the Afghan 
        National Security Forces.
  <bullet> The UAE has expanded financial assistance and is funding 
        several innovative initiatives.
  <bullet> Malaysia and Egypt have committed important medical 
        resources. It is hard to overstate the practical and symbolic 
        influence of Muslim women doctors treating Afghan patients.

    As President Obama, Secretary Clinton, and General Petraeus have 
emphasized, our civilian mission is crucial to the progress of our 
overall strategy in Afghanistan. Additionally, our civilian programs 
provide a foundation for our long-term commitment to helping the Afghan 
people rebuild from 30 years of endless war. While our military mission 
in Afghanistan is not open-ended, our civilian commitment will endure 
long after our combat troops come home. It is essential that we remain 
focused on our objectives and adapt our strategy to conditions on the 
ground, while also allowing time for our new programs to demonstrate 
progress.
    Thank you again for the opportunity to appear before you today. I 
look forward to a continued dialogue on these issues and am pleased to 
take your questions.

    The Chairman. Well, thank you, Ambassador Holbrooke.
    I think we'll go with 7-minute rounds. We have a fair 
number of Senators, and I want to give everybody a chance to 
get their questions in.
    Share with us, if you would, what you see as the major 
impediments to a more rapid sense of progress in the governance 
issues, the local governance issues, as well as the top-down 
Kabul-to-the-local-districts components of this. And 
particularly, looking at something like the Marjah offensive 
and the lessons we might learn from that, what can you share 
with us, marks a sign of progress there, and--and/or what are 
the hurdles that you're struggling through that you see the 
potential of resolving with respect to that?
    Ambassador Holbrooke. The impediments, Mr. Chairman, are 
extraordinary. The sheer capacity of the government and its 
personnel, the risks that----
    The Chairman. I assume you mean the absence of capacity.
    Ambassador Holbrooke. Yes. The sheer capacity problem. To 
get qualified Afghans, after 30 years of war, is very 
difficult. A handful--a relative handful of people from the 
diaspora have returned to help their country, but there's so 
much talent, at countries like the United States and others, of 
Afghan Americans who are living here, I would love it if more 
of them would help their government. But, to go back and work 
for the----
    The Chairman. Why are they not?
    Ambassador Holbrooke. Some did, but it's a very difficult 
problem. It's very dangerous. They're frustrated by the 
government structure. Corruption has been an impediment. And 
they're giving up a wonderful life here. We've talked to them. 
Some have--as you know, have gone back. Human resources is the 
most important variable.
    You know, Ashraf Ghani has said to us, and I'm sure to you, 
that if you had 6,000 well-trained people, you could change it.
    Second, the immense poverty of the country, the poorest 
non-African country in the world; the corruption issue; the 
history of the country; the illiteracy rate. You take the 
police, for example. For 7 years, for reasons I cannot 
understand, the United States participated in training Afghan 
police, at vast expense, without giving them literacy training. 
We were turning out police with 88 percent illiteracy, and it 
went right by everyone. I wrote about it, as a private citizen. 
As soon as I was given this job, we went at it. And with the 
support of my then-counterpart, General Petraeus, we made 
literacy training a mandatory part of the effort. But, how 
could that have been allowed to happen? How can you have a 
policeman who can't read an ID card?
    Now, you mentioned Marjah. Marjah's uniquely difficult 
because, as those of you who have been there know, while it has 
a long legacy of interaction with the United States, it was the 
area where the Kennedy and Johnson and--Eisenhower, Kennedy, 
Johnson, and Nixon administrations really put in the effort, 
and the people down there remember America very fondly. It's 
also been ground zero for the Taliban, and it's a very 
difficult area to operate in. And what the Taliban have done, 
Mr. Chairman, is targeted assassinations. It's a very tough 
problem.
    So, the effort is multiple. Now, what are we doing about 
it? We have sent more than--we have more than tripled the 
American civilian presence, while always mindful of the issue 
you and I just discussed earlier of avoiding the dependency 
trap. We have particularly increased--increased by, in fact, 
600-fold--our field presence. When I was in Marjah, 2 weeks 
ago, I saw the best civilian-military interaction I've ever 
seen in my experiences in wars like this. And I've seen more 
than my share. They really were working together seamlessly, 
under hellish conditions.
    The tribal leaders I met with said, ``We're glad you're 
back,'' referring all the way back to the Kennedy-Johnson era, 
``but we need agriculture, we need seeds, we need security. And 
we risked our lives to come meet with you today.'' And, in 
fact, as if to underline the point, while we were meeting at 
the tribal shura, two suicide bombers detonated themselves in 
the marketplace, who had apparently been waiting for our 
delegation, but, when we didn't go to the marketplace because 
we ran out of time, they went ahead and did their thing, 
anyway.
    So, the point I want to underscore, Mr. Chairman, is how 
difficult it is in a place like Marjah. That doesn't mean it's 
impossible, but it will take time, and it will take resources.
    The Chairman. Well, let me ask--if Marjah was difficult, is 
Kandahar going to be any easier?
    Ambassador Holbrooke. Yes, I think it will. I think Marjah 
was really, really extraordinary. And you've been there, you 
know that it is so remote and isolated, and yet it's so--it's 
viewed as so critical, in strategic terms----
    The Chairman. What I worry about the Kandahar operation is 
that, you know, prior to American troops announcing they were 
going to go in, there were not assassinations, there was not a 
level of violence. The mere announcement has now brought on the 
process of assassination and intimidation. And I doubt that 
we're going to have a sufficient level of troops to be able to, 
``pacify the city.'' I'm unsure of the strategy, to be honest 
with you, and I wonder if you can help us understand exactly 
where we're heading in that regard.
    Ambassador Holbrooke. Mr. Chairman, first let me be clear, 
Marjah is not Fallujah. Marjah is not going to be a battle for 
the city for exactly the----
    The Chairman. No, that's not Kandahar.
    Ambassador Holbrooke [continuing]. Excuse me--Kandahar will 
not be a battle for the city, like Fallujah. And you, yourself, 
just made that point, and I want to underscore it.
    Second, General Petraeus is currently doing his own 
strategic review. It would be premature of me, not having 
talked to him about this issue in a couple of weeks, and about 
to see him, to give you a more detailed statement, but I am--
your perception is one that I'm fully aware of and, I think, 
basically, has great merit.
    The Chairman. Well, Mr. Ambassador, as I finish up my time 
here, I'd just say to you that if, as you and I believe--and I 
think you do--I know you do believe this--Pakistan is central 
to the resolution, and if, as we all know, there isn't a 
military solution, but you need a political one, it seems to me 
that the greatest pressure comes, maybe, possibly, with 
Kandahar, but certainly not in the absence of pressure on the 
western part of Pakistan, which we're struggling with the 
Pakistanis to get to be a sufficient level. But, if that 
doesn't meet with some kind of barrier or some sort of military 
presence, which I think has been withdrawn from the area to 
some degree on the other side of that border, the immediate 
part of that border, I think it sort of undermines what we're 
trying to get the Pakistanis to do. I'm not sure you can do 
both. Maybe General Petraeus has a view of how that can happen. 
But, it seems to me that that review is perhaps well, you know, 
that it's appropriate.
    Ambassador Holbrooke. Well, let's see what he comes up 
with, Mr. Chairman. For our part, our focus on Pakistan is 
based on the fact that we recognize--and this has not been 
recognized in the past--that Pakistan has legitimate security 
interests in its neighbor, with an undefined border, and those 
have to be taken into account; but, at the same time, nobody is 
saying that Pakistan has the right to determine what happens 
next door. It is simply that they--we hope they can get along, 
and we've been encouraging that. And we believe that recent 
dialogue between Islamabad and Kabul has been beneficial.
    As for the situation on the border, General McChrystal, and 
now General Petraeus, have repeatedly traveled to Islamabad. 
General Petraeus made his first trip, in his new job, to 
Islamabad just a few days ago. The coordination between GHQ and 
Pakistan and ISAF headquarters in Kabul, virtually nonexistent 
a year ago, is now well advanced. Is it as far advanced as it 
should be? No, sir. But, it is moving in that direction. And 
Admiral Mullen will be also traveling out to the region in the 
near future to move that forward, as I will be when I visit, in 
a few days.
    The Chairman. Well, Mr. Ambassador, I want to just 
congratulate you on the efforts you've made, which have really 
been unprecedented. I don't think I can recall anytime in any 
war, certainly not in Iraq or otherwise, where the kind of 
coordinated effort took place to bring civilian and military 
leaders here to Washington, and to meet in the kind of 
concerted way that we did. That several-day meeting, I think, 
was exceedingly helpful. The key now is, obviously, translating 
it to their followthrough and execution over there. But it 
certainly laid some important groundwork.
    And I also want to say to you that I think you are really 
onto something. The complications of India, Pakistan, and 
Afghanistan, we all know very, very well. It is very, very 
difficult, with years and years of history, suspicion, 
conflict, paranoia. But, if that can somehow be managed, that 
may be, by far, the most effective way to resolve this 
conflict. I think you know that, and I think you're pursuing 
it. But, that is perhaps the avenue of greatest potential 
nonmilitary resolution, and I really wish you well with that, 
because I think it is critical to the outcome.
    Ambassador Holbrooke. Thank you.
    The Chairman. Senator Lugar.
    Senator Lugar. Ambassador Holbrooke, at the risk of 
oversimplifying the history of the situation, in 1998 we had 
two of our Embassies in Africa attacked by, apparently, al-
Qaeda cells. This was a severe shock. But Afghanistan was 
different, because al-Qaeda had training camps there that were 
protected by the Taliban. From those camps came attacks upon 
New York City and Washington, DC. We went to war because the 
Taliban refused to give up the al-Qaeda camps, and that began 
the war that we're discussing today.
    Now, many Americans reading about al-Qaeda today would say 
that a good number of them probably reside in Pakistan, and 
therefore they would accept the fact that the two neighboring 
countries have to be considered together. It should be noted 
that al-Qaeda has the potential of basing operations far beyond 
the borders of Afghanistan and Pakistan. For instance, the New 
York Times had a Sunday story in their magazine about Yemen. 
The suggestion was that Yemen might be such a place. This is 
because of, among other things, the country's remoteness and 
the central government's continued difficulty in addressing 
political unrest there. Others have suggested Somalia because 
of the overall lack of governance that has plagued the country 
for several years, which has endured in part because of 
intruding elements from neighboring states.
    The point that I'm making is that we started in Afghanistan 
because we thought that's where al-Qaeda was, and we wanted to 
disrupt any further activity that might threaten us in the 
United States of America. Now, 10 years later, as we've all 
pointed out, we are still there. My point in raising these 
questions about metrics was--and you've answered this in part--
perhaps in the future they could lend us credible evidence that 
President Karzai's efforts have been successful, and that a 
central government has been formed which possesses reasonable 
ability to maintain law and order within the country and repel 
outside forces. They could also quantify that the United States 
and our allies are doing a great number of good things with 
regard to improving the country's agriculture, strengthening 
its economy, and so forth. This is at least a possible 
scenario.
    But, as you pointed out, it's not quite that simple, 
because President Karzai will continually be under pressure 
from those in Pakistan who say that, after all, Afghanistan is 
a legitimate security interest of ours, not just because it's a 
neighbor, but, because it is seen by some Pakistani leaders as 
contested territory with their perceived adversary India. 
Furthermore, they note that Taliban from Pakistan come over 
into Afghanistan and vice versa. Right now, President Karzai 
appears to be dealing with some types of Taliban hopefully 
trying to define those with whom he can work as opposed to the 
other elements that are not willing to negotiate. Even as we 
engage in Kandahar and pursue success in our engagement, once 
again, at this time it is hard to tell what the definition of 
success may be. We will need metrics to quantify, for example, 
the effects upon any elements in the city as our operations 
proceed and after they conclude, especially among those who do 
not wish either the United States or even Afghanistan itself 
well.
    I'm coming to the conclusion that fighting al-Qaeda through 
trying to reform or reshape Afghanistan may not have been where 
we should have started or hoped to have finished. The question 
is, How do we best address our threats and interests in 
Afghanistan without broadening that mandate and move on?
    I raise this because at the beginning of the Obama 
administration, the President called some of us around the 
table. He discussed the withdrawal from Iraq, and some persons 
in attendence, who shall remain nameless, said, ``Mr. 
President, get a sharper pencil. July 1 of this year is too 
long.'' Well, the President stuck to the plan and we are, in 
fact, withdrawing. But, right now we don't have a strong 
government in Iraq. The Parliament is there, but has only met 
once since a legitimate election. This is a tough endeavor, and 
similar difficulties will continue to emerge in Afghanistan.
    I think we really have to begin to define our objectives 
because the wealth of the United States is not limitless, nor 
are the casualties of our forces and the number of people we 
have available. The thought that we can meander on without 
calibrating metrics on the basis of which we can define success 
unacceptable.
    So, I am hopeful that at some point after the Kabul 
Conference, you and the Secretary of State and others will 
bring us clarity of what is going to be an acceptable 
definition of success in Afghanistan. At the same time, we must 
worry about the threat al-Qaeda poses to Yemen, Somalia, and 
all sorts of other places. We must also consider strategies, a 
different strategy, for dealing with al-Qaeda cells throughout 
the world, as opposed to sending tens of thousands of forces 
and trying to revamp the country in question. I hope you can 
sharpen the focus a little bit as to what might come out of the 
upcoming conference. It is possible that clarifying the future 
with regard to our efforts in Afghanistan is premature right 
now, and that the release of the commander's review in December 
signifies the time at which these issues should be addressed. 
But, in order to have the continuing strong support of the 
Congress and the American people, a better sense of success, 
and a real definition of the term as it applies to Afghanistan 
are going to be required.
    Ambassador Holbrooke. Senator, first of all, there's no 
part of your analysis that I would take issue with. Now, let me 
address your specific points.
    First, quickly, the Kabul Conference. The Kabul Conference 
is going to have several focuses, but the one I want to draw 
our attention to is the reintegration program, which has 
finally been announced, and which is now--the money has been 
assembled, a good chunk of money--and we all agree, there's no 
final military solution to this war, there has to be a way to 
get Taliban fighters off the battlefield, and this is the 
route.
    Second, you mentioned the December review process. That is 
a review process, and the President will look at how the policy 
is done and make his own judgments. It would be inappropriate 
for me to foreshadow it, but we're ready, thinking--you asked, 
earlier, not to wait until December. As a matter of fact, only 
this week and last week, I've sat down with my colleagues at 
the National Security Council staff, and we've talked about how 
to do this. And we will be continuing that discussion in Kabul 
next week with Secretary Clinton and myself and General 
Petraeus and Ambassador Eikenberry. And, in addition, we are 
going to have another one of our civilian-military exercises in 
Kabul, in the fall, one that David Petraeus and I planned 
before he took his current assignment.
    Second point concerns our--the fact that our commitment--
our combat commitment in Afghanistan is not open-ended, a point 
you made, which we all agree with. There's been a lot of 
dispute about what July 2011 means, and you will--you mentioned 
it in your opening statement; you raised some questions about 
it.
    So, with your permission, Mr. Chairman, I'd like to address 
that absolutely critical issue.
    What the President said was clear. He was going to send 
additional troops to Afghanistan and then, in July of next 
year, he would begin careful withdrawals, in accordance with 
the situation, but withdrawals would begin. The size, scope, 
timing, pace, and an endpoint for combat troop presence has not 
been decided on, nor would it be appropriate to decide on it 
when troops are still arriving in the country and when issues 
like the situations that Chairman Kerry just mentioned, in 
Marjah and Kandahar, are still in a very intense phase. But, 
we're looking at it continually.
    Second, and most importantly, from my point of view, since 
this team behind me and myself have been charged, not with the 
military operations, but with the civilian support of those 
military operations, it has been stated flatly, by the 
President and the Secretary of State and others of us, that 
there will be a continued economic and development assistance, 
Congress permitting, and continued support for training of the 
army and police, Congress permitting, beyond the combat troop 
presence.
    Senator Levin, in your other committee, has made very clear 
how much importance he attaches to it, as have you and Chairman 
Kerry and others. I cannot stress how important this is, 
because Afghanistan cannot go forward unless the international 
community, led by its greatest nation, the United States, 
continues to fulfill its commitments in the area, beyond combat 
troops. Now, it's obviously much cheaper, and it's obviously 
something that can only occur as the police and army are 
trained and able to stand on their own feet.
    And, as for economic and development assistance, that's 
essential. What happened in 1989, when the Soviets left and the 
world, led by the United States, just turned its back on 
Afghanistan and watched the liberation of eastern Europe, never 
recognizing that the fall of communism had begun in 
Afghanistan, never recognizing we had a commitment, is a lesson 
of history we cannot afford to repeat. And it was a direct line 
from the 1989 decisions to 9/11. And we all know the history 
here.
    So, I want to stress what 9/11--what July 2011 is, and is 
not, Senator, and the importance of continuing it.
    And, in terms of your saying ``sharpen our pencils,'' I 
will take this pencil with me, and it is very sharp, and we 
will continue to drill down. As both you and Chairman Kerry 
have said, we are fully committed to this effort.
    Senator Lugar. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Feingold.
    Senator Feingold. I'd like to welcome Ambassador Holbrooke. 
It's, of course, always great to see you.
    And I want to thank Chairman Kerry for calling this hearing 
today. It reminds us that our engagement with Afghanistan can 
and must extend beyond military operations. I'd like to add, 
given the questions raised about whether further changes are 
needed to our leadership team in Afghanistan, I think all of us 
should think carefully before calling for the replacement of 
those whose assessments on the ground have provided candid 
insights, including the assessment of our Ambassador in Kabul, 
that adding more troops will only increase instability. And I 
think the time has come for the President to set a flexible 
timetable for responsibly drawing down our troops so that we 
can focus on pursuing a sustainable global strategy to combat 
al-Qaeda. We've been talking about the countries of Somalia and 
Yemen, here, for almost 10 years on this committee, and yet 
somehow we get focused on an Afghanistan, we get focused on an 
Iraq, and we've never seriously addressed these other places, 
despite the repeated warnings that have been available ever 
since 9/11.
    Ambassador Holbrooke, I'm pleased that President Obama did, 
at least, set the start date for the redeployment of the 
troops, although I think a start date alone is insufficient. 
People in Wisconsin agree. And a new CBS News poll found that 
54 percent of respondents now say the United States should set 
a timetable for the withdrawal of United States troops from 
Afghanistan.
    Secretary Clinton, here before us, has suggested it'll take 
3 to 5 years to transition control to Afghan security forces. I 
think that timeframe's too long. But, I'd ask you to just 
comment again--I know you were already saying a little bit in 
response to Senator Lugar--but wouldn't it be helpful for the 
President to at least lay out a flexible timetable for 
maintaining United States troops in Afghanistan, to address not 
only the concerns among the American people, but the concerns 
among the Afghan population, that this should not be an open-
ended occupation?
    Ambassador Holbrooke. First of all, Senator Feingold, it's 
a pleasure to see you again. And I'm not entirely surprised at 
your question. It's one you and I have discussed before in 
other forum.
    I have to, respectfully, say that I am very leery of 
setting a date certain, made here, for the absolute withdrawal 
of our support to the Afghan police and army. Now----
    Senator Feingold. But, you heard my question, my friend.
    Ambassador Holbrooke. You were talking about----
    Senator Feingold. I said ``a flexible timetable.''
    Ambassador Holbrooke. OK.
    Senator Feingold. I did not say----
    Ambassador Holbrooke. But, then----
    Senator Feingold [continuing]. A hard and fast----
    Ambassador Holbrooke. But, then you talked--OK. So, I want 
to be clear, then, so you and I are on the same wavelength, 
because it's very important. When you say ``a flexible 
timetable,'' you want to set a notional end date, but you're 
willing to reexamine it?
    Senator Feingold. I don't want--actually, I would rather 
not set it; that's not my job. I'm asking the President----
    Ambassador Holbrooke. OK.
    Senator Feingold [continuing]. The administration--to give 
us a vision, with some time guidelines, about when they think 
the troops can come out of Afghanistan. No, I think it's much 
more----
    Ambassador Holbrooke. You're talking about the combat 
troops.
    Senator Feingold. Yes.
    Ambassador Holbrooke. OK. That is above my paygrade. I 
thought we were talking about the other parts of our presence 
there. But, I think we have to start by understanding several 
things about this extraordinarily difficult country that fate 
and destiny has placed us in. It's not where you choose to 
fight to defend the American homeland. It's the most remote 
logistical place the United States has ever fought in its 
history, a landlocked country which is very difficult to 
resupply in under these extraordinary conditions.
    But, given that fact, and given the direct correlation 
between Afghanistan and our homeland security--and I should be 
more precise; Afghanistan, Pakistan, and our homeland 
security--I am very leery about setting an end date at this 
point. But, I must leave that to the President after he's done 
the review.
    I do not have any problem with July 2011, in reference to 
the earlier colloquy I had with Senator Lugar. The idea here 
was quite clear: to tell the world and the Afghans that we do 
not have an open-ended, limitless Vietnam-type escalation. When 
I got to Vietnam, we had 10,000 troops. When I left, we had 
500,000. At least two members of your committee were there, 
under much more dangerous circumstances. And we cannot repeat 
that. And President Obama was very conscious of that.
    At the same time, I stress again why this isn't Vietnam. 
This is about our national security. Vietnam was not. And if 
our national security requires us to continue to fight because 
you have organizations like the TTP in western Pakistan 
training people like the Times Square bomber--luckily, training 
him quite badly--and declaring that they wish to target the 
United States, in addition to al-Qaeda's targeting, we cannot 
be oblivious to that.
    Now, both you and Senator Lugar mentioned Somalia and 
Yemen. It is not correct--this is not my area, but I follow it, 
and it is not quite correct to say the United States is 
ignoring it or has no plans in it. We are taking actions in 
it--and the New York Times article, which you referred to, 
Senator Lugar, was very clear. It began with a drone strike, 
which was very effective in taking out an al-Qaeda group in 
Yemen. And that article was--it was a very interesting article, 
but we--the al-Qaeda and other organizations, like the TTP, are 
specifically targeting us, and we cannot ignore them.
    Senator Feingold. Ambassador, let me just switch to another 
question before my time runs out.
    United States civilian strategy for Afghanistan and 
Pakistan pledges support for the Afghan Government 
reintegration efforts for Taliban and other fighters. And you 
touched on this, but how have the Karzai administration's 
efforts at reintegration--the Afghanistan Peace and 
Reintegration Program plan and the Consultative Peace Jirga--
translated, so far, on the ground, in terms of rolling out this 
plan in the initial districts where it's envisioned?
    Ambassador Holbrooke. The rollout has not yet reached the 
provinces and districts, Senator Feingold. That is the next 
phase. We do have, as I think I mentioned, maybe before you 
arrived--we have put $100,000 with--$100 million, with 
Congress' approval, of CERP funds, at the disposal of General 
Petraeus and ISAF, to do this through ISAF, but the main route 
for doing this--what you and I called ``reintegration''--is 
through the Afghan Government and the trust funds, which the 
British and the Japanese have led, to which the United States 
did not contribute. The Japanese took the lead.
    It is our absolute goal, highest priority, to urge and 
encourage and press the Afghan Government to fulfill its 
already-stated commitment to put reintegration officials in 
every one of the contested districts in the country 
immediately, and to support them with logistics and make this 
plan work. Because every day, under the intense pressure that 
ISAF has put on the Taliban, there are people contacting local 
authorities and saying, ``We want to get out of this war, we 
want to have--we want to have land, we want to have a job 
we're--we don't have any ideological commitment to Mullah Omar 
or the Taliban.'' And up to now, there was no way they could do 
it. And it's only now that, with this program--and the program 
is--just been unveiled, so this--again, to me, this is the most 
important new development, and this is one of the main things 
that Secretary Clinton will focus on, on her trip.
    Senator Feingold. Thank you, Mr. Ambassador.
    The Chairman. Thank you, Senator Feingold.
    Senator Corker.
    Senator Corker. Mr. Chairman, thank you. I--and I want to 
thank the Ambassador for coming. I know he has a wealth of 
knowledge, and certainly has served our country for many years.
    A number of us wrote a letter to you, asking for this 
hearing--and my guess, is you might have had hearings anyway--
but, the reason we wrote the letter--bipartisan letter--was to 
provide Congress and the American people with a definition of 
the ``end state'' for our civilian operations in Afghanistan, 
clear objectives for the civilian mission, and a detailed plan 
for achieving those objectives, and the very specific, 
measurable metrics being used to measure progress toward 
achieving those objectives.
    I have to say, I've been here for an hour and 10 minutes, I 
have heard nothing--nothing about that. And, while I respect 
the Ambassador--I've heard a lot about process, I've heard a 
lot about meetings--I have no earthly idea--no earthly idea 
what our objectives are on the civilian front. And I don't know 
if you have time to begin doing that right now, but this has, 
so far, been an incredible waste of time, from the standpoint 
of hearing those.
    And I have tremendous respect for you, but maybe we have 
the wrong witness. I hope we'll have, maybe, Secretary Clinton 
and Eikenberry, maybe Crocker--I know he's supposed to come. 
But, could you answer the question that was the purpose of 
these hearings in the first place?
    Ambassador Holbrooke. I'm sorry, you don't feel that I've 
told you what our civilian----
    Senator Corker. You've told me----
    Ambassador Holbrooke [continuing]. Programs are?
    Senator Corker [continuing]. A lot of process. I'd like to 
know, with definition, what our end state is for civilian 
operations--the very question we asked when we set this hearing 
up--is, in Afghanistan, clear objectives for the civilian 
mission, a detailed plan for achieving those. I'd like to hear 
you talk about that.
    Ambassador Holbrooke. Well----
    Senator Corker. I mean, I'd glad--I mean, we have a lot of 
interagency folks here, but I'm not hearing anything that talks 
about where we're going.
    I'd also like to know how the withdrawal date that's been 
set affects that, and how it affects those we're working with 
in the----
    Ambassador Holbrooke. Well----
    Senator Corker [continuing]. Country.
    Ambassador Holbrooke. First of all, Senator Corker, I 
believe I have discussed our civilian programs in very 
considerable detail, within the constraints of time. But we did 
prepare a report for this committee, earlier this year, which 
was entered into the record, and which I will be happy to enter 
into the record again, if you wish, and you can go through 
every one of the programs.
    The reason I brought my colleagues with me was to show that 
this was a whole-of-government and unprecedented effort.
    Now, on the specifics, since you want specifics, 
Afghanistan is an agricultural country. It exported 
agricultural products until 1978 and the Soviet invasion. We 
have--trying to rebuild it. This was not being done for the 
first 7 years of this war. We have--your committee has given us 
a great deal of money for agriculture, and we are spending it 
wisely in a joint AID/USDA effort, which Senator Lugar has, 
particularly, been involved in--food, seeds, cash-for-work 
programs, encouraging alternatives to opium production.
    Second, rule of law. We are spending the money you've 
authorized for us to create a justice system which can cut into 
the Taliban's propaganda about corruption and lack of a justice 
system.
    Third, counternarcotics. We have ended poppy eradication, a 
radical change, because all we were doing by eradicating poppy 
seeds--poppy crops--was driving farmers--poor farmers--into the 
hands of the Taliban.
    Fourth, a major program of subnational governance, where we 
are putting aid directly to the district level.
    Fifth, a major effort in specific areas, some of which were 
alluded to earlier, such as electricity for Kandahar. Senator 
Kerry asked earlier about Kandahar. One of the major issues 
here is to bring electricity to the people as a benefit of the 
international presence.
    The whole range of activities we have is designed to 
support the country and to support General Petraeus's 
counterinsurgency effort. He and I--I was his counterpart until 
2 weeks ago, when he moved to Kabul. We have worked intimately 
in an effort to create a joint civilian/military effort.
    And I am happy to provide you with every detail you wish, 
in private briefings, on behalf of me and my team.
    Point No. 2, in regard to the end-state issue you raised. I 
want to be clear on the difference between ``end state'' and 
``exit strategy.'' If we--it--this is my personal view, 
Senator, but if we walk away from Afghanistan again, as we did 
21 years ago, the consequences will be similarly catastrophic 
because of the unique strategic position of Afghanistan and the 
reaction that would have in Pakistan, China, India, and the 
country to Afghanistan's west--Iran--as well as the larger 
region--that includes Russia, Saudi Arabia, India--and even 
extending to Western Europe, which is concerned about terrorism 
from that region just as much as we are.
    So, I hope that, when we talk about ``end state,'' we talk 
about a sustainable end state which can--involves continued 
American economic and development assistance, and we continue 
to fulfill our obligations to train the police and the 
military. This will not be cheap, but it will be a fraction of 
the money that is now being authorized and appropriated for the 
military campaign.
    When we will be able to transition to that is impossible 
for me, or anyone, to say, but it won't be on a single day; it 
will be a gradual process. And that is what the review in 
December and the President's decisionmaking will focus on.
    Senator Corker. You know, our foreign policy, generally 
speaking--I know we've had some rough times over the last 
several years--has been something that we've been able to 
address in a bipartisan way. And I think that the issues that 
you're dealing with, that we're dealing with, in Afghanistan 
are incredibly tough.
    I still don't--I haven't understood what the administration 
was saying in the beginning. That's not to be critical of them; 
I just don't understand. I still don't understand. I've met 
with you and your staff over at the State Department. It's just 
incredibly vague to me. And I think what we are doing--we have 
partners, which include the Pakistanis and everybody around--
that--they don't know what we're doing, they don't know when 
we're leaving. They think we're leaving shortly, I think. We've 
just had colleagues who have come from there. We've got a 
President there that's having to play both sides, because he 
wants to survive, because he doesn't know what our intentions 
are. The Pakistanis don't know what our intentions are, I don't 
think, and they're making accommodations on both sides.
    So, I just have to tell you, I send letters to parents and 
spouses, and what I feel, because of this lack of clarity, is 
that we are in Afghanistan because we're in Afghanistan, and 
that we don't have the will to be successful, and we don't have 
the will to leave, because of some of the things you just 
outlined. But, I just don't hear any clarity. And again, I want 
to support the administration, I want to support you, because 
that's what we need to do, as a country, is, at the shore's 
line, let the partisanship that--but, I have to tell you, as a 
person who wants to do that, I still don't understand. OK? And 
I have average intelligence.
    So, I would ask you to please--or maybe let's have some 
witnesses in here that can shed more light or be more specific. 
But, I don't understand, and I'm very concerned, and I think 
we're sending a lot of mixed signals. And I think there's a lot 
of dissension, actually, as I listen to you, even within the 
administration itself; and that has to end.
    And I'd just ask you, please--you have a lot of 
experience--help us understand. You haven't done that today.
    Ambassador Holbrooke. Well----
    Senator Corker. And I would ask the chairman to please have 
some witnesses come in and explain to us what the end state is, 
what we can envision Afghanistan being whenever this withdrawal 
does take place, because I still do not understand. We've 
changed it. Now it's sort of a degraded country, where they 
have conflict, but it's not out of control. I mean, the bar 
continues to change.
    And I'm just concerned, as an individual; and yet, I want 
us to be as--if we can, all on the same page, as much as 
possible; but, I think, to do that, this has got to be much 
clearer than has been outlined.
    Ambassador Holbrooke. Senator, I'm sorry that my answers 
don't fully satisfy you, but I want to be very clear on this, 
because I understand your comments, and I respect them.
    First of all, the core question, the one you're asked by 
your constituents and I'm asked by everybody, ``Why are we in 
Afghanistan?'' The short, simple answer is: 9/11, direct 
threats to our national security interests, and the fact that, 
while our enemies against our homeland are on the Pakistani 
side of the border, this is a single struggle, and we have to 
strengthen the Afghan Government and teach it to stand on its 
own feet over time, so that we can move forward while we do 
other things, that fall outside the scope of this hearing, to 
dismantle, deter, and defeat al-Qaeda.
    Now, if you do not believe that it's a threat to the 
homeland, then we have an honest difference of opinion. But, I 
think the Times Square bombing incident shows clearly how 
dangerous that situation is.
    Second, on the civilian mission, again, it's in support of 
a single civilian/military counterinsurgency mission. And we 
have benchmarks, requested and required by the Congress and 
submitted to you, and our overarching goal here is always the 
same: to disrupt, dismantle, and defeat al-Qaeda, and prevent 
its ability to threaten the United States. And we believe, all 
of us--and there is no division on this in the executive 
branch--that the situation we face out there is a direct 
threat. We believed that before the Times Square situation 
occurred, and I don't think anything could have proved it more 
vividly.
    And to achieve this, we have to degrade the Taliban, as 
well, because they are part of the enemy's structure--a 
different part, but an integral part--that we face.
    Now, the Afghan Government doesn't yet have the capacity to 
deal with this on its own. How could they, after 30 years of 
war? And so, the civilian part of it, the things I've just 
mentioned to you--police, government capacity, rule of law, 
subnational government, training provincial officials, women's 
empowerment, and a whole series of other major issues--are part 
of our civilian programs, and we're happy to come back up to 
your office--we appreciated your visit to us--and continue this 
dialogue.
    Our civilian strategy is designed from keeping al-Qaeda at 
bay, and it's designed to help Afghan institutions establish 
conditions for stable governance. Our plan has these 
benchmarks, which have been briefed to you and your colleagues, 
and we're happy to discuss them in detail at any time.
    The Chairman. Thank you, Ambassador. Thank you, Senator.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Ambassador Holbrooke, thank you very much for your 
extraordinary service. We appreciate it very much. Always 
appreciate your appearing before our committee.
    I want to, first, ask a followup question to Senator 
Feingold. We talk a lot about the July 2011 and the--as you put 
it, the beginning of a careful withdrawal. Well, the President 
made this announcement in late 2009. Can you just give us an 
update whether we are on target, as the administration had 
envisioned when these statements were made in late 2009, as to 
the careful withdrawal of our troops, or are we ahead of 
schedule? You seem to be somewhat optimistic on some of the 
progress that had been made, but would you--would you say that 
we are meeting the expectations that the administration set out 
when the President addressed this issue in late 2009?
    Ambassador Holbrooke. Are you talking about the December 1 
speech, the West Point speech?
    Senator Cardin. Correct.
    Ambassador Holbrooke. Senator, I appreciate your personal 
comments. In regard to your question, I do not want to give a 
optimism/pessimism report to you of that sort at this time. I'm 
about to go back out there again on my 15th trip. I'd like to 
report back. I think that there--significant elements of 
movement forward, in many areas, but I do not yet see a 
definitive turning point in either direction. And we now have a 
new and a tremendously dynamic commander on the ground--General 
Petraeus--and I'm looking forward to seeing him, for the first 
time in his new capacity. And I do--simply do not have a 
personal judgment on that issue now.
    Senator Cardin. Well, I do think we're entitled to be 
informed as to how well we are meeting the expected schedule 
that the President obviously had in mind when he gave his 
speech in December.
    Ambassador Holbrooke. Well, excuse me for interrupting, I--
perhaps we had a miscommunication. As I mentioned to Senator 
Corker in my previous answer, we have put forward the 
benchmarks, which you requested. We've briefed on those, and 
those go through the specific criteria, point by point by 
point.
    Senator Cardin. No----
    Ambassador Holbrooke. And we can go back over them.
    Senator Cardin. No----
    Ambassador Holbrooke. I thought you were addressing a--kind 
of a larger----
    Senator Cardin. No, I was----
    Ambassador Holbrooke [continuing]. Almost intuitive answer.
    Senator Cardin. Well, what I'm trying to get is that--
obviously, the President had certain expectations in mind as to 
where we would be in July 2011, when he made his speech in 
December 2009. I'm just trying to figure out whether we're on 
schedule to meet the expectations that the administration had 
when the speech was given.
    Ambassador Holbrooke. I guess my simplest answer to you 
would be, in some areas we're ahead of schedule, in other areas 
we're on schedule, in other areas there's much to be desired. 
And the--for example, the attrition rate for the army and the 
police has gone down. That is a really important factor. But, I 
honestly don't know whether it's seasonal, anecdotal, or it's 
sustained. We won't know for a while. That's why the President 
did not--does not want to pull this tree up by the roots every 
month and reexamine it. It has to nurture.
    General Caldwell, in charge of the training, is in constant 
touch with us, and he's reporting how they're moving forward. 
Nothing is more important than getting the police and army up 
to sustainability.
    On the other hand, as the colloquy with Senator Kerry 
indicated, in Marjah there are not enough judges, there are not 
enough local police yet, and people are being assassinated. 
And, as General McChrystal said publicly, Marjah is not gone 
quite at the pace expected, but it's moving forward, in the 
estimation of ISAF.
    So, you have to take these, issue by issue. There is no 
single answer, yet, to this extraordinarily complicated 
situation.
    The elements that I stressed in my opening statement, sir, 
involving the progress in Pakistan, should not be neglected. 
Pakistan is at least as important to our national security.
    Senator Cardin. And I understand that, and I understand 
that's not an easy issue. I'm just trying to judge whether we 
can expect the careful withdrawal that will begin in July, 
whether we're on target to accomplishing that.
    Let me go on to the second point, and that is--we all talk 
about the ability of Afghanistan to control--that is, the 
security of its own people and to run a country with good 
governance and respect for human rights. I've expressed, 
previously, my concern that the United States aid and the 
international aid not be a source of funds for corruption in 
Afghanistan, that there be accountability in these funds. And I 
know that the administration has set up certain 
accountabilities on the funds that are being made available.
    I would like to add to that the information that 
Afghanistan has mineral wealth, and whether we are certain that 
these are not just fungible dollars, and therefore, the 
international assistance and United States assistance could be 
a source to fund a corrupt regime which robs the country of 
good governance which is absolutely essential. How can you 
assure me that we're making progress on the funds getting to 
its intended purpose and not being used for corruption?
    Ambassador Holbrooke. Senator, just one point on your 
previous question. I think I may have answered part of the 
question you asked prior to your arrival. I want----
    Senator Cardin. I was here from the beginning.
    Ambassador Holbrooke. Oh, OK, then I----
    Senator Cardin. Promise, the whole time.
    Ambassador Holbrooke [continuing]. Apologize. But, I want 
to underscore that the pace and scope of the drawdowns will 
depend on the situation.
    Senator Cardin. I heard you say that.
    Ambassador Holbrooke. Yes, OK.
    On the accountability and mineral wealth problems--very, 
very important issues--on accountability--and this committee 
has been really aggressive in pushing us on this, and we share 
your concern. When we came into these jobs, about 8.8 percent 
of all the aid money was going through the government, so 91 
percent was bypassing it through NGOs, and that was undermining 
the government we were trying to strengthen. Yet, to funnel it 
all through the government ran the very serious risk of losing 
accountability.
    So, we set out a plan, a timetable, year by year, to 
increase the amount of money that goes through the government. 
And we're now up in the high teens, and we hope to keep 
increasing it to 30, 40, and 50 percent. But, the 
accountability issue is critical.
    We have accountability criteria for each ministry. Some 
ministries have been certified, others have not. For example, 
agriculture, the ministry--our most important nonsecurity 
program--the ministry hasn't been certified yet, because we 
don't feel their accounting will meet the GAO standards, the 
SIGAR standards, our own standards. So, this is a very, very 
tough issue for us. But, we have made accountability our 
hallmark, while also trying to build government capacity. 
There's sometimes a tension between those two.
    On the mineral wealth issue reported in the New York Times, 
perhaps a little misleadingly, it's not a new discovery that 
Afghanistan is a wealthy mineral area. What is, however, new is 
that, with modern techniques, the extractive industries can 
reach areas that were quite remote. Afghanistan's mineral 
wealth, according to the U.S. Geological Survey, is very 
substantial. I'm not going to throw the numbers around that you 
read about in the New York Times, because I have no independent 
corroboration of those. But, there's no question about copper, 
lithium, and some very critical, strategically important, rare 
earth elements.
    And we--the Defense Department has a group, under Paul 
Brinkley, a Deputy Under Secretary of Defense, that has been 
working on this. He has been working with us to work with AID, 
Ex-Im Bank, OPIC, and TDA, to make sure that we help the Afghan 
people, No. 1, develop those resources for the benefit of the 
people, strengthen their own economy through doing it, avoid 
the resource curse that has plagued so many oil-producing and 
copper-producing nations, and, finally, make sure that the 
United States has a level playing field. In the case of the 
famous copper mine at Aynak, China dominated that. There have 
been all sorts of questions about how they got that contract. 
They paid a lot more for it than any Western country would have 
paid, and so it was a strategic investment for them. They have 
the ability to do that in a way that we don't, and we're 
working hard on that.
    I would be happy to brief you further on this, but, I do 
want to say one last thing about it. Secretary Clinton is 
personally engaged on this issue. And if I'm not mistaken, 
Ashraf Ghani probably talked to you about it, Mr. Chairman, as 
well, because it's a very important issue.
    Senator Cardin. Mr. Chairman, I'd just urge we have 
complete transparency--our government insists--on the mineral 
issues in that country.
    The Chairman. Absolutely.
    Ambassador Holbrooke. Yes.
    The Chairman. We will insist on it.
    Ambassador Holbrooke. And we're going to--Senator, we're 
also--I think the Afghans are seriously considering joining up 
to the Extractive----
    Senator Cardin. EITI.
    Ambassador Holbrooke. EITC, yes, sir.
    The Chairman. Ambassador Holbrooke, I need to----
    Ambassador Holbrooke. EITI, I apologize.
    The Chairman. I need to apologize; I need to go to a 
meeting on the START agreement now. Senator Lugar will chair, 
in my absence, and Senator DeMint is recognized. I'll try and 
get back, if I can.
    Senator DeMint. Thank you. Thank you, Mr. Chairman.
    Ambassador Holbrooke, thank you, and your whole team behind 
you, for your service to our country. I recognize probably the 
most difficult diplomatic situation anyone could work in.
    I'd like to ask just a couple of questions related to the 
civilian-political side of the equation in Afghanistan. My 
question really comes from a perspective of some folks who have 
been on the ground in Afghanistan over the last couple of years 
to--well, 3 or 4 years--as part of a religious group that's 
working through an NGO. And I've got a good friend who's been a 
part of that. A year and a half ago, he came back, after a long 
stay there, and one of his colleagues had been killed by the 
Taliban. There wasn't a lot of security. But, the enemy was 
clearly the Taliban. And the people were, at that time, more 
looking to the United States for protection. And the folks 
working through the NGO were afraid of the Taliban.
    He just returned, and I had a good conversation with him 
last week after another long stay of working on the ground. 
But, the situation has changed and deteriorated, in his mind, 
to the point where they fear the government now more than they 
do the Taliban, that government leaders are increasingly 
speaking out against non-Muslims in the country. And the bottom 
line from his perspective is, the deadline is defeating us, is 
that the people know we're leaving. Even if we make it somewhat 
flexible, we've made it clear that our commitment's not to 
finish the job, but to leave.
    And this is not my own opinion, but one I'm getting from 
people working on the ground, that the people are developing 
alliances with the Taliban for protection, and other insurgents 
in the country. Government figures are developing stronger 
relationships with the Taliban, which is making them 
increasingly antagonistic to non-Muslims in the country. And 
all the alignment now, on the civilian side, is in expectation 
of America being gone. Even the government is moving more that 
way.
    And we have a situation now where we've got soldiers 
fighting and dying there for a government that, if left to 
their own devices, might throw them in jail or even kill them 
for being non-Muslim. And so, after just listening to the 
conversation, first of all, it comes back to what you said 
before--and I was glad to hear you say that the deadline--that 
you don't agree with a deadline. But, the President, even 
though he's equivocated to some degree, has still left that out 
there, that that is his goal, to get out. And I agree somewhat 
with Senator Corker, in that we have not said, ``Here is what 
we are going to achieve before we leave.'' We talk about a 
situation on the ground, but what are we going to achieve 
before we leave?
    But, to--I know that's more of a question--or, I mean, a 
perspective than a real question, but I'd just like to hear 
your comment on what appears to be a deteriorating situation 
brought on by the presumption that the United States will be 
gone in a year, or in a year and some time period after that.
    Ambassador Holbrooke. I have no doubt, Senator, that your 
report of your friends and associates is accurate--a perception 
on their part--because I've heard the same things. You hear 
many different things about policy, from many different people. 
And the President's position has been misrepresented, whether 
intentionally or unintentionally, by a lot of people--
journalists, columnists, leading public figures. But, I think 
it's quite clear he did not say, ``We're withdrawing in July 
2011.'' He said, ``We're beginning withdrawing.'' And you heard 
one of your colleagues on the other side question that as being 
insufficient. Now you're questioning it as being too far. This 
is an issue in which there's a legitimate grounds for 
disagreement. But, I did not say I disagreed with the deadline. 
What I said was, this is what the deadline means, and the U.S. 
military command has supported and accepted this deadline, and 
has endorsed it, publicly.
    Now, the deadline applies to combat troops. And it's not a 
deadline; it is the beginning of a departure. And the size and 
scope and end state of that departure will be determined by the 
situation on the ground, but it will begin. And that is to 
incentivize the local authorities in Kabul to take on their own 
responsibility for their--for solving this problem so it is not 
open-ended situation.
    In that regard, the President will make specific decisions 
down the road after the--or--during or after the policy review. 
And he will deal with that, based on what he hears from General 
Petraeus and the Command and Ambassador Eikenberry and the 
Embassy and other people advising him.
    In terms of the reaction on the ground, Senator, I have a 
slightly different perception--but, again, it's hard to come by 
firm data--is--there have been many public opinion polls taken 
in Afghanistan, despite the conditions. They're all face-to-
face, because telephones obviously won't do it. Every poll 
shows that less than 10 percent of the people support the 
Taliban. Less than 10 percent. ARD, ABC, BBC, the Charney 
Group, which briefed us the day before yesterday here in 
Washington, they all come up with the same number. A lot of the 
other people--nobody wants to return to the black years of the 
Taliban--the women, especially; they suffered so much, and they 
remember it so vividly.
    On the other hand, they're not all satisfied with the 
services and support they get from the Kabul government. And 
Kabul itself, for reasons that go back to the discussion I had 
with some of your colleagues earlier, is not always capable of 
producing the right kind of human resources, infrastructure, 
and programs for this, and corruption and rule of law are huge 
problems.
    But, if you look at every indicator--electricity, cell 
phones, roads, the GDP of the country, agricultural 
production--every one of these things has had a dramatic 
improvement. Last year, Afghanistan had a 22-percent growth in 
GDP, obviously against a very small base. That's nondrug, 
legitimate GDP, by the way.
    So, I think that the situation is not quite as clear-cut as 
you say it is. As I said earlier, there are elements of 
movement in many areas. And if you go around Afghanistan, you 
see these extraordinary visions of women cooperatives and 
farmer efforts to rebuild and undo 30 years of war. We need to 
be able to continue to support those efforts as we go forward, 
even after the combat troops leave Afghanistan.
    Senator DeMint. Thank you, sir.
    Ambassador Holbrooke. Thank you, sir.
    Senator DeMint. Thank you.
    Senator Lugar [presiding]. Thank you very much, sir.
    Senator Casey.
    Senator Casey. Thank you, Senator Lugar.
    Ambassador, we welcome you again, and thank you for your 
service to the country.
    I wanted to raise an issue that reminds me that--in 
Washington we use a lot of acronyms describing programs and 
agencies. Unfortunately, there's one acronym I think that a lot 
of Americans actually know what it is, and it's IEDs. And we've 
talked about this a number of times, and I appreciate your work 
on it. There are actually two. It's--the acronym IED, plus the 
acronym AN, for ammonium nitrate when we talk about improvised 
explosive devices. The question I have--well, let me just first 
set forth the predicate.
    We've all been concerned about this issue, as you have, and 
I know the administration, at all levels, has. We introduced a 
resolution a couple of days ago that passed. A number of us 
were cosponsors of that--Senator Webb, along with me and 
several other colleagues. And what we asked for in that--or, I 
should say, what we set forth as the reason for the resolution 
was the following: No. 1, urging the Governments of Pakistan, 
Afghanistan, and other central Asian countries to fully commit 
to regulating the sale, transport, and use of ammonium nitrate, 
the main destructive ingredient in the IEDs; second, calling on 
the Secretary of State to continue to diplomatically engage--
she and your team has already done this, but more needs to be 
done; third, to work with the World Customs Organization and 
other bodies on initiatives to improve the controls on IEDs; 
and then, fourth, urging the Secretary of State to work with 
Pakistan, Afghanistan, and central Asian countries to encourage 
and support improvements in infrastructure.
    So, the question I have is--I realize that this resolution 
has been passed recently, but the question I have is, give us a 
status report as to how our government, and especially the 
State Department, has been already engaged in fulfilling those 
objectives, and what you can tell us about it. Because we have 
a basic problem, where you have a legal prohibition on ammonium 
nitrate in Afghanistan, but a huge problem in Pakistan that is 
both a problem of law, but also a problem of figuring out ways 
to stop the inflow of ammonium nitrate into Afghanistan from 
Pakistan.
    And the numbers are stunning. I mean, we know that it's--
IEDs are the--by far, the biggest killer. Pennsylvania, just 
since the beginning of the year, we've lost six soldiers, four 
as a result of IEDs. We're over 51 killed in action in 
Pennsylvania, and over 270 wounded. So, I just wanted to get 
your latest update and give us the benefit of that.
    Ambassador Holbrooke. Senator Casey, I share your concern, 
I share your astonishment that so little was done on this in 
the past, and I want to commend you and Senator Webb for 
continuing to push. And in the privacy of this room, I would 
urge you to continue to do it, because this is a really 
critical issue, and your public pressure has helped those of us 
who share the concern.
    The Pentagon has a task force on this--on the IED issue, as 
you know, headed by Ashton Carter. And we're working with him.
    As far as ammonium nitrate goes--AN--we were successful in 
getting the Afghan Government to issue a Presidential decree 
banning the import, production, transportation, use, and sale, 
and storage of AN fertilizer. However, it is still legal to 
bring it in for mining and construction sectors, as you well 
know. And that's a major--that's a legitimate use. And there 
are not adequate alternatives, except something like dynamic, 
which brings similar problems with it.
    We do not have enough action, yet, on the Pakistani side of 
the border. And here is a perfect example of why the two 
countries cannot be disaggregated for purposes of policy. We 
got what we wanted on one side of the border, but we haven't 
gotten it on the other yet, and Americans are being killed and 
wounded because of this. And I can assure you that we will take 
this up again when I go to Pakistan in a few days, and other 
senior officials go, as well.
    I don't know if we need to go any further with that answer 
now, because you and I have spent so much time on it. But, I'm 
glad we got a chance to raise it in public and to assure you 
that this administration has task forces and puts it as a 
priority, and we will continue to do so.
    Senator Casey. Thank you, and I appreciate that. We'll 
continue to push on our end, as well. And I know--I failed to 
mention Senator Kaufman was also one of our cosponsors.
    I wanted to go to the question of President Karzai. I don't 
have much time left, but I do want to raise this question. You 
say, on page 3 of your testimony, ``We expect''--and I'm 
quoting, ``We expect that President Karzai will address 
commitments he made in his November 2009 inaugural address.'' I 
and others have been very critical of his leadership, or 
sometimes what can only be described as lack of leadership. I 
don't expect you to evaluate my analysis. But, I guess I'd ask 
you--and I think the American people have a real concern 
about--they know it's an uneasy alliance and there are all 
kinds of problems, but I guess the one question I'd ask you is, 
What are the--how should we measure his performance, based upon 
those commitments? What are the signals or the signs or the 
substantive achievements or goals that he should meet that you 
are most interested in, in terms of advancing our mission 
there? I realize that we have been frustrated sometimes, and I 
realize that we can't expect perfection, but I think we need 
some way to measure progress, and I wanted to get your sense of 
what indicators you are most interested in.
    Ambassador Holbrooke. I think, in specific regard to your 
question, which focused not on the government or the war, but 
one individual, I think, as chief executive of the country, the 
way to evaluate him is the way you evaluate any chief 
executive. Does he lay out a clear program? He did. Does he 
fulfill his own deadlines? Sometimes. And are the programs he 
lays out effective? Sometimes.
    I'm not here to plead on his behalf, or to criticize him, 
but only to point out what we all know, which is that he may 
have the hardest job of any chief executive in the world, 
because of the complexities and poverty of the country. The 
programs he has laid into place are programs that we all feel 
comfortable with. And the difficulty of implementation, which 
has been the subject of repeated exchanges this afternoon, is 
one that we just have to keep working on.
    And then there's the issue of corruption. And we all 
agree--and President Karzai has said this publicly--that 
corruption is a serious issue. And he's working on it, and he's 
upgrading the High Office of Oversight, which is in charge of 
that issue.
    It would be unfair, however, to hold any one person 
accountable for the totality of events inside any country, even 
if that person is the chief of state. And in this particular 
case, even more so, with a good chunk of the country insecure, 
ethnic divisions, and, historically, a complicated relationship 
between Kabul and the outlying regions, which have different 
ethnicities to them.
    So, I am not--I think he's doing the best job he can under 
the circumstances. I know that doesn't satisfy some of your 
colleagues, but I do absolutely know he's doing that. And if 
the reintegration program gets off the ground, and if it's 
successful, it will have a huge effect.
    Senator Casey. Thank you very much.
    Senator Lugar. Thank you, Senator Casey.
    Senator Wicker.
    Senator Wicker. Mr. Chairman, one bit of housekeeping. In 
response to Senator Corker, Mr. Holbrooke referenced a report. 
I'd like to ask unanimous consent that that report be inserted 
in the record of this hearing at that point in the testimony.
    Senator Lugar. Without objection, the report will be placed 
in the record.
    Senator Wicker. I think that the context is important 
there, and I don't want people who read this transcript to have 
to refer back to a previous hearing. So, thank you for that.

    [Editor's note.--The report mentioned above ``Afghanistan 
and Pakistan Regional Stabilization Strategy,'' was first 
submitted for the record at the January 21, 2010, hearing on 
Afghanistan. It was too voluminous to include in the printed 
hearing but will be maintained in the permanent record of both 
hearings.]

    Senator Wicker. You know, I think, Ambassador Holbrooke, 
you have answered a lot of questions today. And clearly you are 
an experienced and longsuffering diplomat, and you have 
demonstrated that today, too.
    Why are we in Afghanistan today, in 2010? Well, we are in 
Afghanistan because of 9/11. And we're in Afghanistan in 2010 
because we still are not sure that the situation that arose 
from Afghanistan in 2001 might not happen again there.
    I think you've made a compelling case that there are direct 
threats to the United States of America that could arise from 
that area. I think you've made an excellent case about the 
unique strategic position of Afghanistan and its neighbor, 
Pakistan. Clearly, we're interested in Yemen, we're interested 
in Somalia, but there are things about the location in 
Afghanistan that give al-Qaeda an advantage for being in 
Afghanistan that it would not have to have if they had to rely 
on a safe haven in Yemen or Somalia.
    You've made a very telling statement, Mr. Ambassador, about 
the consequences if we walk away from Afghanistan, as we did 20 
years ago. And I believe that's almost a direct quote of your 
testimony today, that the results could be catastrophic, as 
they were earlier because we walked away.
    And in that context, I want to ask you to respond, Mr. 
Ambassador, to the comments of CIA Director Leon Panetta 
recently, when he said that United States officials had not 
seen any firm intelligence that insurgent troops in Afghanistan 
are interested in reconciliation, which I think we've 
acknowledged in this room today, is important if we're going to 
bring this effort to a successful conclusion.
    Mr. Panetta said this--and you've read the testimony, but 
let me quote, for the record--``We have seen no evidence that 
they are truly interested in reconciliation, where they would 
surrender their arms, where they would denounce al-Qaeda, where 
they would really try to become part of that society. My view 
is that, unless they're convinced the United States is going to 
win and that they are going to be defeated, I think it is very 
difficult to proceed with a reconciliation that is going to be 
meaningful.'' That's as far as I will quote this President's 
CIA Director, and ask you to respond there.
    You may feel that the President's position on the July 2011 
beginning of withdrawal is clear, as you've said. But I would 
submit to you, Mr. Ambassador, that it is not clear to everyone 
who listens, and it's not clear to the Taliban, and it's not 
clear to the people who feel threatened by the Taliban.
    I agree with you, the vast majority, overwhelming majority, 
of Afghan people do not want the Taliban back, but they are 
legitimately worried about who would fill a vacuum if indeed 
they are interpreting the President's position in a way that is 
different from the way you are.
    We have walked away before, according to your own 
testimony. And so, how can our enemy in Afghanistan who might 
be willing to acquiesce and say, ``Yes, we want to be part of a 
peaceful society and a peaceful government''--how can they feel 
that they're going to be defeated if we are sending a signal 
that, depending on conditions on the ground in 2011, we might 
yet make a decision to walk away?
    Ambassador Holbrooke. Senator, in regard to Director 
Panetta's comments that you quoted, I agree with his comments. 
They are not inconsistent with what I said, because he was 
referring to reconciliation, the idea of higher level 
negotiations--or, effectively, negotiations--with the 
leadership of the Taliban Supreme Shura, also known as the 
Quetta Shura. And the press, at the time of his hearing, was 
filled with reports--erroneous reports--of deals in the offing. 
It just wasn't true. And Director Panetta was trying to clarify 
the record. And what he said was precisely right.
    I have been talking about reintegration, the program 
announced, supported by the United States and the international 
community, which is so critical to take fighters off the 
battlefield. There's some overlap between the two. But, I think 
we all see the clear distinction.
    In regard to your other question, you stated correctly the 
misunderstandings. All I can say is that the misunderstandings 
are, in an ironic sense, enhanced by constant questioning of 
the date. The President has been clear on what he said. I've 
tried to be clear this afternoon, in testifying before you. 
But, some people continually--in the guise of helping the 
United States, some people assert that the President is 
leaving, when he made clear he is not. He is starting a 
withdrawal, and that it will be--the size and scope and pace 
will be determined based on the situation and our national 
security interests. But, some troops will begin to leave. 
That's a big distance from the misperception that both you and 
I have seen.
    And I understand your point, because it concerns me 
greatly. And I never make a speech where this doesn't come up, 
and especially overseas. So, I appreciate your comments, and I 
take them to heart.
    Senator Lugar. Thank you very much, Senator Wicker.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Ambassador, it is good to see you again. I have great 
admiration for your spirit of public service and the energy 
that you bring into anything that you do here.
    I would also like to say that I identify with Senator 
Lugar's opening statement and, to a certain extent, with the 
concerns that Senator Corker was laying out that there are a 
lot of people in this country who are very confused. And I 
think, when you're working on this as intently as you are, the 
perception may be different. But, there is a real need for 
clarity in terms of what actually can be accomplished through 
the way that we are going about this.
    We know that we have an obligation to be doing something 
here because of 9/11, but we also know that international 
terrorism is, by its very nature, fluid and mobile. There were 
no real operational al-Qaeda in Iraq when we got to Iraq. They 
came and they left largely before we decided to withdraw. We 
know that al-Qaeda is active in other countries. We have seen 
estimates, from Mr. Panetta, General Jones, and other people, 
that the level of al-Qaeda inside Afghanistan is less than 100 
people. I know where your jurisdiction is, and I know the work 
that you're doing cross-border. But, for a lot of Americans, 
this is a very confusing thing.
    Also, you and I know, from history, how effective targeted 
assassinations are.
    Ambassador Holbrooke. Yes.
    Senator Webb. You will recall, when you were talking about 
the very beginning of when you were in Vietnam, when President 
Kennedy first announced the escalation in Vietnam and the 
Vietcong were assassinating an average of 11 government 
officials a day.
    So, a lot of this talk about people being nervous about our 
timeline in Afghanistan, I would venture that a good bit of 
them are more nervous about the wedge that is being driven 
between them and this government because of the policy of 
targeted assassination.
    So, all this sort of comes together in a way that, just 
speaking honestly because I greatly respect what you're trying 
to do and I've withheld any judgment about our policy until 
this December review--I said that when General Petraeus was at 
his confirmation hearing--but this is becoming more and more 
opaque to the public understanding as it has evolved.
    What I'm looking for is what we're going to need to see, 
what the American people need to see by December are measurable 
results in a policy not simply program by program but evidence 
of political stability, rather than operation by operation and 
an agreed-upon conclusion. I take your point, which isn't 
whether we will walk away from an obligation, but there has to 
come a time when it will be appropriate for us to withdraw. 
We're not going to be there forever.
    That's what the American people need to see here. And 
that's what I'm going to be looking for. And I wish you well.
    Ambassador Holbrooke. Senator, there's almost nothing you 
said I can quarrel with. And you used the two words that you 
used which echo, and I hope that we all remember, are 
``measurable results.'' We--Senator Kerry began by saying 
``accountability,'' and you talk about ``measurable results.'' 
So, we're judging ourselves by that. The President is demanding 
that of the military and civilian team that you have had 
testify before you.
    That's why I'm making this trip. I was just in the region 2 
weeks ago. I'm going back. I'm not doing it for the Frequent 
Flyer miles. And I cannot tell you how deeply we feel that 
pressure, particularly because, as several of your colleagues 
have said, American men and women are risking their lives, 
sometimes paying the ultimate price, for this policy. And it 
has to work. We owe it to them.
    At the same time, we recognize, as Senator Wicker said, 
that this began with 9/11. We're not there in the way we were 
in that other war that you and I remember. And so, we have to 
make this work. No one knows it better than the outstanding 
general who is commanding ISAF. I've known a lot of four-star 
generals in my career, and I've never seen anyone better than 
David Petraeus. And he is coming in under extraordinary 
circumstances. And he has immediately intensified the efforts.
    Just to give you one example, which shows civilian/military 
and addresses you point, the very first issue he raised with 
us, in his first telephone conversation with Ambassador 
Eikenberry and me, and General Lute from the NSC, of civilian/
military, was electricity in Kandahar. You all understand the 
relevance of that to the war effort.
    We're going to give it our best.
    Senator Webb. Well, again I don't want to belabor this. I 
just want to be very clear here, I would agree that our 
difficulty, with respect to responding to international 
terrorism, was illuminated by 9/11. The question I'm going to 
be looking at over the coming months is whether we can address 
the issue of international terrorism through the structure that 
we're putting on the ground in Afghanistan. And that will be 
the----
    Ambassador Holbrooke. Well----
    Senator Webb [continuing]. Benchmark here.
    Ambassador Holbrooke. Senator Webb, I just want to finish 
my response, then, by focusing again on what I really actually 
wanted to talk about more here today, which is Pakistan. And 
you understand why I answer your comment with that comment.
    The western part of Pakistan, the lawless areas, are the 
epicenter of the issues that threaten our country. They're 
directly linked to the Taliban, but they're in Pakistan.
    We have made real progress in Pakistan in the last year and 
a half. But, the focus is so overwhelmingly on Afghanistan--for 
valid reasons; that's where our troops are--that we have lost--
we haven't even recognized the movement in Pakistan, across the 
board--economically, politically, strategically--and the fact 
that that is an important step forward. You want measurable 
results? There's one.
    Senator Webb. Thank you, Mr. Chairman.
    Senator Lugar. Well, thank you very much, Senator Webb.
    Senator Shaheen.
    Senator Shaheen. Thank you.
    Thank you, Ambassador Holbrooke, for being here. And, to 
you and all of the folks who are sitting behind you, thank you 
all very much for the work that you're doing.
    I would like to go back to the issue of reconciliation and 
focus on that a little bit. You mentioned, Ambassador 
Holbrooke, the polling that has been done shows consistently 
that women, in particular, have concerns about the Taliban and 
would not like to see them return.
    One of the concerns that I have heard consistently about 
any reintegration or reconciliation efforts with the Taliban 
are that that would be at the expense of women and progress on 
women's rights and women's issues on the ground. So, I wonder 
if you could talk a little bit about what's being done to 
ensure that any efforts at reintegration and reconciliation 
will not undermine progress for women in Afghanistan.
    Ambassador Holbrooke. I can assure you, as I know the 
Secretary of State has assured you, that this will not be 
allowed to happen. I could give you many facts on this--in 
London, in the conference coming up next week; in the visit 
here by President Karzai and his Cabinet--we have--in the 
percentage of women in the Jirga--we have--in the National 
Assembly--we and the previous administration have consistently 
made this a priority issue. On every trip I make, I meet with 
women legislators or women civic society groups. They are the 
bravest people in the world, as you know firsthand from when 
you and I were over there together. And I can assure you that 
the United Sates will make sure that they are involved in every 
area.
    We also have these direct programs. They used to be handled 
under contracts. I felt the contracts distanced us too far from 
the actual issues, so we eliminated most of the contracts. 
There were some complaints, and some of the complaints reached 
your committees. So, I want to explain very clearly to you, 
Senator, that we terminated as many contracts as we could in 
order to give more flexibility and more responsiveness in the 
women's programs through the Ambassador--the Ambassadorial Fund 
for Women--instead of these long 2-, 3-year lead times for 
programs which don't meet the current crisis. This is also true 
in Pakistan. I know you've talked to the Secretary of State 
about this, as have many of your colleagues. I can assure you, 
we will never let this issue out of our sight.
    Now, in regard to reconciliation, if you read Secretary 
Clinton's speeches on this, and her comments, mine, and, of 
course, the President's, we have always made this is critical 
variable. If somebody wants to be reintegrated or reconciled, 
they have to accept the constitution and they have to renounce 
violence, and we need specifically, in any reconciliation 
talks, due respect for all minorities and the role of women. It 
would not be possible to go back to the black years.
    Senator Shaheen. Well, could you, then, talk a little bit 
more about how this process might work. Are we on the same page 
with President Karzai on how reintegration and reconciliation 
will happen? What elements of the Taliban are we focused on? 
And what's the role of Pakistan as we're looking at how any 
negotiation efforts would go forward?
    Ambassador Holbrooke. You're talking about the role of 
women or the whole reconciliation?
    Senator Shaheen. I'm talking about the whole process, but I 
assume that the role of women is part of that.
    Ambassador Holbrooke. We're on the same page with President 
Karzai on the role of women. But, I would be misleading you if 
I said that everyone in Afghanistan society and public life 
agrees with that. There are many conservatives who are anti-
Taliban, but have the same views of the role of women that you 
and I would object to. And in Pakistan, it's even more evident. 
And so, we can never cut down our vigilance on this.
    The last three times I was in Afghanistan, I called on the 
Ulema Council, the senior religious governing body, 
specifically to discuss about these issues, because here are 
anti-Taliban people, but they're very conservative. That's a 
legitimate part of Afghan society. And many Afghan women 
themselves have told me that it's legitimate, in their views. 
But, at the same time, we cannot leave it where it is. And we 
are constantly talking about it.
    Now, on the larger issue about reconciliation, we and 
President Karzai have begun an intense dialogue on this issue, 
which Secretary Clinton and I will continue on this trip. And 
we've had similar talks in Islamabad. But, I would tell you, in 
all frankness, that we're in the early stages of those talks. 
We couldn't begin them until after the inauguration, after the 
London conference, and after a certain sorting out. And, very 
importantly, Senator, we want reintegration programs to be out 
there and established before we start getting out in front. 
That's why Director Panetta made the comments that Senator 
Wicker referred to.
    And the last point here is critical. The success or failure 
of reconciliation efforts will be linked directly to the 
success of the military operations. The more pressure, the more 
success that General Petraeus and his troops have, the more 
likely it is that the other side will recognize the 
impossibility of their situation.
    Many people come to us and say, ``You ought to have a 
cease-fire. Stop it. It'll work.'' I have, based on my own 
experience, the opposite view. Military success on the 
battlefield dictates the conditions of this sort of process.
    Senator Shaheen. So, can you just briefly address 
Pakistan's role?
    Ambassador Holbrooke. Pakistan's role in reconciliation is 
ambiguous and opaque at this point. It is something that we 
want to learn more about Pakistani attitudes toward--remember, 
we're talking about reconciliation in Afghanistan----
    Senator Shaheen. Right.
    Ambassador Holbrooke [continuing]. Not Pakistan's own 
relationships. But, they have five major insurgencies going on 
in their country: the Afghan Taliban; the Pakistani Taliban, 
who are the trainers of the Times Square bomber; LET, which was 
responsible for the Mumbai bombing; the odious Haqqani network 
group--Haqqani group are the ones in north Waziristan who have 
been attacking the American Troops; al-Qaeda itself; and 
several other groups. So, their situation is enormously 
complicated and unique to Pakistan.
    And this is the first time, Senator, we've really had these 
discussions in Islamabad. And we're very grateful to the 
leadership that has been shown by the Pakistani Government and 
its military leaders for the kind of dialogue that is underway 
as part of the strategic dialogue that Secretary Clinton and 
Foreign Minister Qureshi have headed.
    Senator Shaheen. Thank you very much.
    Senator Lugar. Let me intrude for just a moment. The 
Ambassador will need to leave for the airport in 15 minutes. 
This does allow for two 7-minute question periods, which would 
be allotted to Senators. But, I would ask Senators to be 
respectful of that. The Ambassador, as we know, is flying 
directly to the scene.
    Senator Menendez.
    Senator Menendez. I'll let Senator Kaufman----
    Senator Lugar. Senator Kaufman.
    Senator Kaufman. Thank you.
    Mr. Ambassador, I want to thank you for your service. And I 
especially want to thank your team. This is tough duty, under 
the best of circumstances, and the sacrifices that your team 
makes over.
    And the second thing I'd say is, I think it's really key--
you know, we kind of gloss over it--it's the civilian side of 
this that's going to make the difference in this. I think our 
military is performing incredibly. They know what they're 
doing. They're doing it well. But, it's going to be the 
civilian part of this that's going to make this a success, or 
not, in my opinion.
    In that--with that in mind, you know, we talk about 
benchmarks. One of the benchmarks I've had for the last year 
and a half is not just generally corruption, but what happens 
when we get the many people we've brought in, our civilian 
people, and they start working with the ministries, and they 
start uncovering corruption, and they find specific cases 
that--they have wiretap information, they have all kinds of 
investigative information. So, I'd like your comment about--
there was a June 28th article, in the Washington Post, that the 
Kabul government's been derailing these as the cases are being 
brought. To me, this is extremely, extremely serious. It goes 
right to what he said in his statement. It goes to our success. 
Not that there's corruption in general, but that, when you find 
corruption and you bring the case, that the case--the people 
are either--the cases are being pushed aside or the people are 
being pardoned.
    Ambassador Holbrooke. Could you just clarify the specific 
question, sir?
    Senator Kaufman. Oh, June 28, there was an article in----
    Ambassador Holbrooke. Yes----
    Senator Kaufman [continuing]. The Washington Post----
    Ambassador Holbrooke [continuing]. I remember it.
    Senator Kaufman [continuing]. That says that the----
    Ambassador Holbrooke. This is the corruption article.
    Senator Kaufman. Well, not just corruption. The article 
says that when--they're finding cases. They are checking--
investigating them. They're bringing in the cases. And the 
cases are being dismissed----
    Ambassador Holbrooke. I see.
    Senator Kaufman [continuing]. By the Kabul government. I 
mean----
    Ambassador Holbrooke. Well, I read the article carefully, 
and the companion one in the Wall Street Journal. We're very 
concerned about it. And I just can't comment on the specifics 
of the cases, because I just don't know enough about them. And 
I don't think I should comment on internal Afghan ongoing 
investigations.
    The man they've talked to--mentioned--Mr. Zima, was part of 
the bribery case against Muhammad Noor. He was the former 
treasurer of Hajj operations. Mr. Noor's boss, the minister, 
escaped the country before he could be arrested under the 
indictment. Noor himself has been convicted by the 
anticorruption tribunal, sentenced to 15 years in prison and a 
$900,000 fine. And I understand that the Afghans are commencing 
an extradition effort against Minister Chakari.
    We have a huge anticorruption effort underway, but it built 
on nothing. There was nothing when we came.
    Senator Kaufman. No, I--look, I totally----
    Ambassador Holbrooke. And so, to set it up has taken some 
time. Also, as I said earlier, Senator Kaufman, the elections 
really slowed it down. I'm not trying to defend our inability 
to have done more on this issue. It is of the highest 
importance. General Petraeus and I and Ambassador Eikenberry 
all share that concern. And we take that article very, very 
seriously.
    Senator Kaufman. Because I--you know, there's a general 
charge of corruption, and clearly that's been one of the issues 
that people have talked about, and I think that's serious. But, 
I think what my----
    Ambassador Holbrooke. You're talking about Task Force 2010.
    Senator Kaufman. 2010?
    Ambassador Holbrooke. On the--you mean, on the American 
side.
    Senator Kaufman. Yes.
    Ambassador Holbrooke. Yes.
    Senator Kaufman. So--but, I'm just saying the--to me, where 
the rubber hits the road, the benchmark, the civ-mil metrics, 
all that kind of stuff--one of them is, when we get our folks 
over there, and we bring in good folks from DEA, FBI, and the 
rest of it----
    Ambassador Holbrooke. Right.
    Senator Kaufman [continuing]. And we start to bring cases, 
you know, will the cases actually--will the government have the 
will to actually bring the cases, is one of the key--not just 
general corruption--you know, allegations, discussions, 
rumors--but, actually bringing cases. And I think this is 
especially true when you go into Kandahar, because I think when 
we go into Kandahar, we're going to find many, many cases of 
corruption. This is the Pashtun. This is the--the government. 
So, I'm just concerned that--I'm going to be watching very 
carefully.
    Ambassador Holbrooke. You know, Senator, the Anticorruption 
Tribunal of Afghanistan just convicted a border police general, 
named Saifullah Hakim, and two of his aids, on corruption 
charges. He had 800 ghost soldiers on his payroll. This 
tribunal's only been in existence for 5 months. It's a direct 
result of the efforts of the team that's seated behind me. It's 
part of the major--on the U.S. side----
    Senator Kaufman. Yes.
    Ambassador Holbrooke [continuing]. We have the Major Crimes 
Task Force. I don't want to leave you with the impression that 
we're solving the problem. But, at least we've identified it.
    Senator Kaufman. Right.
    Ambassador Holbrooke. We're working on it. It's one of our 
highest priorities.
    Senator Kaufman. Right.
    Ambassador Holbrooke. And this tribunal in Kandahar has a 
conviction rate of about 90 percent.
    Senator Kaufman. Good. And I'm just--and, as you know, in a 
war on counterinsurgency it's a battle between whether the 
people respect the government, or not. It's kind of basic to 
counterinsurgency. There's a lot of talk, in the committee, 
about all these different things that not true. We know what 
counterinsurgency is. And one of the things, Do they respect 
the government, and will the rule the government? And clearly 
this is whether the government do that.
    Ambassador Holbrooke. One last point, Senator. Admiral 
Mullen, responding to these concerns and recognizing a 
previously unrecognized fact, which was, one of the major 
sources of corruption was in U.S. military contracts, 
established the task force I mentioned a minute ago--Task Force 
2010. And I think that the admiral in charge of it is--I think 
you met with her--I think that's the admiral you're referring 
to.
    Senator Kaufman. Right.
    Ambassador Holbrooke. And I apologize for not remembering 
her last----
    Voice. Dussault.
    Ambassador Holbrooke. Admiral Dussault. Yes, she has been 
into our offices, and we're working very closely with her. And 
they--and their Task Force 2010 is really important, and its 
task is to review all contracts in order to limit contract-
related fraud. Imagine that a year and--a year ago, this--the 
issue wasn't even acknowledged. Not an excuse, and it's not a 
solution, but at least we're being open and addressing it 
directly now.
    Senator Kaufman. Thank you.
    And thank you, Senator Menendez, for yielding. I appreciate 
that.
    Thank you, Mr. Chairman.
    Senator Lugar. Thank you, Senator Kaufman.
    Senator Menendez.
    Senator Menendez. Mr. Chairman, thank you.
    Thank you, Ambassador, for your service. I appreciate you 
have to leave. I hope you appreciate I have to cast votes on 
lives and billions of dollars.
    Ambassador Holbrooke. Yes, sir.
    Senator Menendez. So, I'll try to make it as quick as 
possible.
    I remain deeply concerned. I agree that you cannot talk 
about Afghanistan without talking about Pakistan. Obviously the 
more troops we deploy to Afghanistan, the more dependent we 
become on Pakistan for transit, logistical, and other support. 
So, as we developed the Enhanced Partnership with Pakistan Act 
of 2009, I sought to include provisions that would ensure the 
United States has, one, a comprehensive strategy to eliminate 
terrorist threats and close safe havens to Pakistan; and, two, 
to assess the effectiveness of assistance provided, including--
as it relates to efforts undertaken by the Government of 
Pakistan--to disrupt, dismantle, defeat extremist and terrorist 
groups in the FATA and settled areas.
    Now, as of this moment, the administration has yet to 
provide these congressionally mandated reports, as the law 
calls for. I highlighted that fact in a letter to Secretary 
Clinton last week, and urged the completion of those reports.
    Have you been involved in the preparation of those reports? 
And are you ready to make such congressionally mandated reports 
to Congress?
    Ambassador Holbrooke. Senator, of course I'm ready to 
comply with any congressional mandates, as I have throughout my 
career.
    Senator Menendez. And have you participated in the creation 
of these reports?
    Ambassador Holbrooke. With your permission, Senator, may I 
just consult Assistant Secretary Verma for a second?
    Senator Menendez. Surely.
    Ambassador Holbrooke. Because I just need to clarify what 
we're talking about here.
    Senator Menendez. Surely.
    Ambassador Holbrooke. I was not aware of a noncompliance on 
a mandated report.
    [Pause.]
    Ambassador Holbrooke. Senator, my colleagues believe we are 
in compliance with the dates and the deadlines of the 
requirements from this committee and the Congress, and that 
there was a request for an update. I am not familiar with your 
letter to Secretary Clinton. Perhaps Secretary Verma can 
address that.
    But, I do want to assure you, because it is--not just 
because we have an obligation to you, but because it is 
everything I've believed in, in my career, that we owe you 
whatever information----
    Senator Menendez. Well, I----
    Ambassador Holbrooke [continuing]. You ask for.
    Senator Menendez [continuing]. I would just simply----
    Ambassador Holbrooke. And I don't know what we would----
    Senator Menendez [continuing]. I would just simply ask you, 
and through you to the State Department, reiterate my request 
to Secretary Clinton. If you're all in conformance, then 
somehow this member of the Senate Foreign Relations Committee 
has yet to see that report. So, I would like to see it, and I'd 
like to get a copy tomorrow, if I can. If it's already out 
there, then we should be able to have it.
    Ambassador Holbrooke. Of course you----
    Senator Menendez. I certainly will not vote for any more 
money unless I have a clear sense that we are headed in the 
right direction or that we are meeting goals and our resources 
are being well spent. And I can't do that unless I start off 
with the basis of understanding that we have benchmarks, and 
those benchmarks are being met. So, I hope we can get the 
report. Somehow maybe it missed my office.
    I have one other question, and then I'll let you go.
    Ambassador Holbrooke. I absolutely--I will commit that we 
will--as soon as this meeting's over--will drill down, 
determine what the issue is, and locate where it is, and we 
will be back to you.
    Senator Menendez. Now, one more question. General 
McChrystal had a series of comments that he made about our 
civilian side overall. Of course, he was relieved of his 
command. I just want to know this: Are we all on the same page? 
You, the Ambassador, now General Petraeus--are we all on the 
same page? Because even being on the same page, it is a hard 
battle and challenge to win. But, if we're not all on the same 
page, it certainly doesn't create confidence in those of us who 
are asked to cast votes here for a continuing engagement. So, 
maybe you can reassure me that we are all on the same page, 
moving in the same direction, executing the same strategy, and 
moving toward a goal that we can collectively have success 
with.
    Ambassador Holbrooke. It's a very legitimate question, of 
course, in light of the Rolling Stone article, which obviously 
was extraordinarily unfortunate and necessitated a completely 
correct decision by our Commander in Chief, because basic 
issues of civilian/military control were involved. And although 
it brought to an end the career of a very distinguished and 
fine officer, it was necessary to do.
    As far as your core question goes, let me assure you and 
state again, for the record, that my counterpart, until 2 weeks 
ago, was David Petraeus. For a year and a half, we worked 
seamlessly, continually. He is now the counterpart, of course, 
of the Ambassador. There was never a problem between us. We had 
tactical disagreements. But, we traveled around the world 
together. We testified before your committee together. And we 
forged a common civilian/military strategy. I've been involved 
in civilian/military efforts all my career. This is the best 
one I've ever seen. And, as I've said before, General Petraeus 
is the outstanding senior officer I've ever worked with. And we 
are absolutely on the same page when it comes to the overall 
strategy and working together. There are disagreements once in 
a while, and the press exaggerates them.
    The article was a group of ad hominem remarks, some of them 
aimed at me, which made no difference to me, in my conduct of 
the war, nor, in fact, for my regard for General McChrystal. 
President Obama, addressing exactly the point that you raised 
in his meeting with us the day that he changed the command, and 
then in his public statements, made absolutely clear that we 
were all on the same page.
    I've done CIVMIL before, and we're in good shape here. And 
I am fully satisfied about it. And I will be seeing General 
Petraeus in just a couple of days, and we will continue this.
    Senator Menendez. Have a good journey. I look forward to 
the report.
    Ambassador Holbrooke. Thank you, sir.
    Senator Lugar. Thank you, Senator Menendez.
    And special thanks to you, Ambassador Holbrooke, once 
again, for remarkable testimony and responsiveness to the 
questions of our members, and likewise pledges to bring 
additional materials, as requested, in a timely way.
    And we wish you godspeed in your travels. We're hopeful 
that the conferences you have will be very productive for our 
country, as well as those with whom you are working.
    Ambassador Holbrooke. Thank you, Senator Lugar.
    And thank you, again, for Kerry-Lugar-Berman. It really 
made a difference.
    Senator Lugar. Thank you, sir.
    The hearing is adjourned.
    [Whereupon, at 4:26 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


  Responses of Ambassador Richard Holbrooke to Questions Submitted by 
                      Senator Russell D. Feingold

    Question. The U.S. Afghanistan and Pakistan Regional Stabilization 
Strategy pledges support for the Afghan Government reintegration 
efforts for Taliban and other fighters. Human Rights Watch, in a new 
report, has noted concerns that reintegration incentives, for example, 
to mid or higher level commanders, who can bring in combatants under 
their command, may be given without proper vetting for human rights and 
other abuses. What kinds of mechanisms are in place or should be put in 
place to ensure appropriate protections?

    Answer. The program document for the Afghan Peace and Reintegration 
Program (APRP), which was endorsed by participants at the July 8 
meeting of the Joint Coordination and Monitoring Board and unveiled at 
the Kabul Conference, makes it clear that the APRP ``is not a framework 
for pardoning all crimes and providing blanket amnesty. Grievance 
resolution and afwa [forgiveness] will be sought in accordance with 
Afghanistan's Constitution, laws and treaty obligations.'' The program 
document notes that ex-combatants will be granted political amnesty, 
freedom of movement and freedom from arrest for past political actions 
only if they agree to live within the laws of Afghanistan and subject 
themselves to its treaty obligations. It also states that the Afghan 
Government will ``set a legal framework for political amnesty and 
forgiveness . . . in consultation with the justice sector, respecting 
Afghanistan's laws, Constitution, and treaty obligations, and the 
Afghan people's desire for peace.'' The APRP also provides for the 
formation of a legal team within the APRP's Joint Secretariat which 
will ``align the terms of political amnesty and grievance resolution/
afwa with the Afghan Constitution and existing domestic 
counterterrorism and criminal legislation.'' This team will also 
provide advice to the Afghan Government including the APRP's High Peace 
Council and will ``prepare the legal framework and guidelines for 
amnesty and grievance resolution within the boundaries set by 
Afghanistan's Constitution and treaty obligations.''

    Question. Under Secretary Flournoy, in her testimony before the 
Senate Armed Services Committee last month, mentioned a ``high peace 
council or commission, which will be the Afghan mechanism that will 
really begin to try to start thinking through reconciliation.'' How 
does the Afghan Government plan to ensure broad and effective 
representation on such a high council, including by women and minority 
religious and ethnic groups? How will it assure the Afghan people of 
the representative and transparent nature of such a mechanism?

    Answer. The Afghan Government is in the lead on reconciliation and 
reintegration initiatives in Afghanistan and they are making every 
effort to ensure that the High Peace Council will be inclusive. At the 
Kabul Conference they released their reintegration plan, the Afghan 
Peace and Reintegration Program (APRP), which offers the following 
assurances about representation on the High Peace Council:

  <bullet> ``The High Peace Council will seek to represent the views of 
        all Afghans and provide political and strategic leadership to 
        the Program [APRP]. The Council will be comprised of state and 
        nonstate actors, women and minorities, military, civilian and 
        respected individuals, including representation from both 
        Afghan Houses of Parliament. There will be space reserved for 
        existing/potential reconcilees within the HPC, contingent upon 
        their acceptance of the laws of Afghanistan.''
  <bullet> ``Afghan men and women will be seated on the High Peace 
        Council, and Afghan women, victims, and civil society groups 
        will play a vital role in monitoring the peace and 
        reintegration process; providing advice to the Government on 
        how to promote peace that benefits all Afghan citizens and 
        ensuring that all opinions can be expressed and all voices 
        heard. The APRP will also promote the role of victims and civil 
        society groups in promoting constructive debate, building 
        conflict management and grievance resolution capacity, leading 
        advocacy for rights of all and ensuring inclusive processes.''
  <bullet> ``Social outreach and communications for the APRP will be 
        conducted at national and subnational levels using contemporary 
        media, governors' spokesmen, and traditional forms of 
        communication through mosques and provincial jirgas. The 
        National Ulema Council--which will be represented on the High 
        Peace Council--will encourage cooperation. According to the 
        APRP's program document, ``The communications and outreach plan 
        will promote peace, and will continuously and transparently 
        convey information on progress to the public.''
                                 ______
                                 

   Response of Ambassador Richard Holbrooke to Question Submitted by 
                        Senator Roger F. Wicker

    Question. Afghanistan's parliamentary elections are scheduled for 
September 18, 2010. What steps are being taken to ensure that the same 
difficulties that plagued the 2009 Presidential elections do not 
resurface in September?

    Answer. The Independent Electoral Commission [IEC], which is under 
new and improved leadership this year, is working to address problems 
that surfaced in the 2009 Presidential elections. We assess that it is 
on track to improve security, transparency, and accountability for the 
upcoming parliamentary elections. The IEC is largely on schedule in 
registering voters, preparing polling center and ballot materials, and 
hiring staff. We are encouraged by the IEC's plans to detect and 
mitigate fraud for the September 18 parliamentary elections, some of 
which are described below:

--The IEC has developed a number of new security features to prevent 
    the reproduction and/or tampering of sensitive materials, which 
    include a unique serial number on each ballot for tracking purposes 
    as well as barcode readers that will scan the ballot packs and 
    tamper evident bags.
--As a means of improvement from previous elections, the IEC also plans 
    to finalize the list of polling centers at least 1 month prior to 
    Election Day. The development of a two-tiered assessment this year 
    is a more comprehensive approach for determining and establishing 
    the list of viable polling centers.
--In order to ensure that there will be no movement of materials prior 
    to counting, votes will be counted at the polling station, in full 
    view of political agents and observers. The number of votes cast 
    for each candidate will be entered both in numbers and words to 
    mitigate the tampering of the result sheets--another notable 
    improvement from last year's elections.

    We are also encouraged that the Electoral Complaints Commission 
appears to be well led. Two of the five electoral commissioners are 
international experts--one Iraqi and one South African. Both are highly 
regarded.
    A persisting problem for the upcoming elections is the difficulty 
of recruiting female searchers for prospective polling centers, which, 
according to the Ministry of the Interior (MOI), is due to budget 
constraints. We will continue to push this issue with the MOI to ensure 
that enough female searchers are recruited and trained for the 
elections.
    Security also continues to be a problem, more so in some provinces 
than others. Security will most likely be the ultimate determinant of 
voter turnout on Election Day, especially with regards to female 
voters, who require extra protection. MOI has also been tasked to 
provide police forces to guard female voters, but has yet to do so.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
